1a

Case: 18-10607

Date Filed: 02/21/2020

Page: 1 of 27

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10607
________________________
D.C. Docket No. 1:17-cv-01819-TWT

DENNIS QUINETTE,
Plaintiff - Appellee,
versus
DILMUS REED,
CHIEF LYNDA COKER,
CHIEF DEPUTY MILTON BECK,
COLONEL DONALD BARTLETT,
COLONEL LEWIS ALDER, et al.,
Defendants - Appellants.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(February 21, 2020)

2a

Case: 18-10607

Date Filed: 02/21/2020

Page: 2 of 27

Before WILSON and GRANT, Circuit Judges, and MARTINEZ,∗ District Judge.

PER CURIAM:
This case arises out of an altercation between Cobb County Detention Center
officer Dilmus Reed and inmate Dennis Quinette in which Reed allegedly caused
the fracture of Quinette’s hip by pushing him with two hands onto the floor of his
cell. Quinette brought 42 U.S.C. § 1983 claims against Reed and his supervisors
and a state law assault and battery claim against Reed alone. The district court
denied the defendants’ motion to dismiss the complaint. The court’s order had the
effect of denying qualified immunity on the federal claims and official immunity
on the state law claim to all defendants. The officers appeal that denial. We affirm
the district court’s denial of qualified and official immunity to Reed, but reverse
the district court’s denial of qualified immunity based on supervisory liability.
I.

FACTUAL AND PROCEDURAL BACKGROUND

The incident occurred at the Cobb County Detention Center, where 54-yearold Quinette was detained in a video-monitored cell. 1 He had recently been
arrested and was in the process of being booked into the detention center. Quinette

∗

Honorable Jose E. Martinez, United States District Judge for the Southern District of Florida,
sitting by designation.
1

In reviewing the district court’s denial of the motion to dismiss, we accept the
complaint’s well-pled allegations as true and construe them in the light most favorable to
Quinette. See Chaparro v. Carnival Corp., 693 F.3d 1333, 1335 (11th Cir. 2012). Accordingly,
we recite the facts as Quinette has alleged them.
2

3a

Case: 18-10607

Date Filed: 02/21/2020

Page: 3 of 27

was housed in an intake cell; detention center officers planned to move him to the
general jail population after his booking was completed. While in the intake cell,
Quinette stood at the cell door for several minutes, hoping to get a jailer’s attention
so that he could make a phone call. As Reed opened the cell door and brought
another inmate into the cell, Quinette asked for Reed’s help. Quinette can be heard
saying “excuse me” on the video recording of the intake cell.
Quinette “remained respectful and polite, never banging loudly on the cell
door or window, never yelling, and never causing any sort of disturbance.” Instead
of helping Quinette, Reed shut the door on him. Quinette placed his hand on the
window of the cell door as it closed. He exerted no “force or pressure” on the
window and did not prevent the door from closing. At that point, Quinette was
“not resisting any officer,” “not presenting a threat of any kind,” and “not causing
a disturbance.” After the cell door made contact with the doorframe, Reed
reopened it and stepped into the cell. Then, without warning, Reed shoved
Quinette with two hands. The shove threw Quinette backwards, where he fell hard
onto the cell floor. He howled and curled up in pain. His hip was broken in the
fall.
Reed walked away as Quinette lay motionless on the cell floor. A minute
later, he returned, attempting to drag Quinette to his feet. Quinette again howled in

3

4a

Case: 18-10607

Date Filed: 02/21/2020

Page: 4 of 27

pain, unable to stand. Reed berated Quinette, leaning over him and yelling, “[y]ou
tried to rush me!”
For approximately an hour, Quinette remained on the concrete floor as
medical staff and jailers attempted to treat him. Emergency medical personnel
then took him to the emergency room, where he was diagnosed with a broken hip.
Reed was terminated from his position after an internal affairs investigation
into this incident concluded that he had failed to comply with the Cobb County
Sheriff’s Office’s policies and procedures. During the investigation, Reed
acknowledged that he had used more force than was necessary. This was the
twelfth investigation into Reed’s conduct while he was working at the Cobb
County Detention Center. In six of the investigations, Reed was found to have
violated Cobb County Sheriff’s Office policy; three involved the use of excessive
force on inmates. Quinette alleges that the defendants who were part of the jail’s
supervisory staff (“Supervisor Defendants”) “turned a blind eye” to Reed’s actions
despite their knowledge of his violations of detention center policy, thus
“ensur[ing] that . . . Reed would ultimately cause a serious injury to an inmate.” In
two of the three investigations into Reed’s excessive use of force, the Cobb County
Sheriff’s Office disciplined Reed after finding that he had indeed used excessive
force. The Sheriff’s Office did not terminate him until after the incident with
Quinette.
4

5a

Case: 18-10607

Date Filed: 02/21/2020

Page: 5 of 27

Quinette sued Reed and the Supervisor Defendants, bringing claims under
42 U.S.C. § 1983 against all the defendants, as well as a state law assault and
battery claim against Reed alone. The defendants moved to dismiss the lawsuit,
claiming that they were entitled to qualified and official immunity. With their
motion to dismiss, the defendants filed a copy of a video of the incident recorded
in the holding cell. The district court denied Reed qualified immunity because his
alleged use of force violated Quinette’s clearly established constitutional right.
The court denied the Supervisor Defendants qualified immunity and determined
that, under the facts as alleged, they could be held liable for the constitutional
violations. Finally, the district court denied Reed official immunity under Georgia
law because he allegedly acted with malice. All defendants appealed.
II.

STANDARD OF REVIEW

We review de novo the denial of a motion to dismiss on qualified or official
immunity grounds, applying the same standard as did the district court. See Bailey
v. Wheeler, 843 F.3d 473, 480 (11th Cir. 2016). In doing so, we accept the facts
alleged in the complaint as true and draw “all reasonable inferences in the
plaintiff’s favor.” Keating v. City of Miami, 598 F.3d 753, 762 (11th Cir. 2010).
In reviewing a motion to dismiss, we are generally limited to the pleadings
themselves. Fed. R. Civ. P. 12(b)(6). But we may also consider those “documents
incorporated into the complaint by reference, and matters of which a court may
5

6a

Case: 18-10607

Date Filed: 02/21/2020

Page: 6 of 27

take judicial notice.” Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308,
322 (2007). The complaint in this case references video footage from the camera
in the intake cell. A document or thing is incorporated by reference into a
complaint where (1) it is central to the plaintiff’s claim, (2) its contents were
alleged in the complaint, and (3) no party questions those contents. Day v. Taylor,
400 F.3d 1272, 1276 (11th Cir. 2005). Here, all three factors are met, so we
consider the video footage. Where a video in evidence “obviously contradicts [the
nonmovant’s] version of the facts, we accept the video’s depiction instead of [the
nonmovant’s] account,” Pourmoghani-Esfahani v. Gee, 625 F.3d 1313, 1315 (11th
Cir. 2010), and “view[] the facts in the light depicted by the videotape,” Scott v.
Harris, 550 U.S. 372, 380-81 (2007).
III.

LEGAL ANALYSIS

This case is an interlocutory appeal from the district court’s decision
denying Reed and the Supervisor Defendants qualified and official immunity. As
an initial matter, we address whether we have jurisdiction to hear this interlocutory
appeal. Because the district court has not entered a final order in this case, the
scope of the appeal is narrow. See Harris v. Bd. of Educ. of Atlanta, 105 F.3d 591,
594 (11th Cir. 1997). This Court has jurisdiction to review an interlocutory appeal
from the denial of qualified immunity pursuant to 28 U.S.C. § 1291. Mitchell v.
Forsyth, 472 U.S. 511, 526-27 (1985). We likewise have jurisdiction to review an
6

7a

Case: 18-10607

Date Filed: 02/21/2020

Page: 7 of 27

interlocutory appeal from the denial of official immunity under Georgia law.
Griesel v. Hamlin, 963 F.2d 338, 341 (11th Cir. 1992). Because we have
jurisdiction, we now address the merits of the defendants’ arguments regarding
qualified and official immunity.
A.

Reed’s Two-Handed Shove Despite Quinette’s Compliance and NonResistance Violated the Fourth or Fourteenth Amendment.
Qualified immunity provides complete protection for government officials

sued in their individual capacities where their conduct “does not violate clearly
established statutory or constitutional rights of which a reasonable person would
have known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). Qualified
immunity ensures “that before they are subjected to suit, officers are on notice their
conduct is unlawful.” Hope v. Pelzer, 536 U.S. 730, 739 (2002) (internal quotation
marks omitted). An officer is entitled to qualified immunity where his actions
would be objectively reasonable to a reasonable officer in the same situation.
Anderson v. Creighton, 483 U.S. 635, 638-41 (1987). We are mindful that officers
face “facts and circumstances [that] are often ‘tense, uncertain and rapidly
evolving,’ thereby requiring ‘split-second judgments’ as to how much force is
necessary.” See Garczynski v. Bradshaw, 573 F.3d 1158, 1167 (11th Cir. 2009)
(quoting Graham v. Connor, 490 U.S. 386, 397 (1989)).
To assert a qualified immunity defense, an officer must have been “acting
within the scope of his discretionary authority when the allegedly wrongful acts
7

8a

Case: 18-10607

Date Filed: 02/21/2020

Page: 8 of 27

occurred.” Lee v. Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002) (internal
quotation marks omitted). Here, it is undisputed that Reed was acting in his
discretionary authority.
We conduct a two-step inquiry to determine whether a defendant is entitled
to qualified immunity. The court must determine (1) “whether the facts alleged
show the officer’s conduct violated a constitutional right,” and (2) “whether the
right was clearly established” at the time of the alleged misconduct. Pearson v.
Callahan, 555 U.S. 223, 232 (2009) (internal quotation marks omitted). We need
not address these steps in sequential order. See id. at 236.
We start by identifying the “precise constitutional violation” at issue. Baker
v. McCollan, 443 U.S. 137, 140 (2007). The allegations in the complaint establish
that Quinette was in a holding cell at the Cobb County Detention Center, awaiting
completion of the booking process before being transferred into the general
detention center population.
Quinette’s allegations support a conclusion either that at the time of the
incident he was still being seized, in which case we would analyze his claim under
the Fourth Amendment, or that his pretrial detention had begun, in which case we
would analyze his claim under the Fourteenth Amendment. In this Circuit, “[t]he
precise point at which a seizure ends (for purposes of the Fourth Amendment
coverage) and at which pretrial detention begins (governed until conviction by the
8

9a

Case: 18-10607

Date Filed: 02/21/2020

Page: 9 of 27

Fourteenth Amendment) is not settled.” Hicks v. Moore, 422 F.3d 1246, 1253 n.7
(11th Cir. 2005). We need not delineate that point now, because even though the
district court concluded that the Fourteenth Amendment applied, Quinette has pled
facts that support a violation of either the Fourth or the Fourteenth Amendment. In
Kingsley v. Hendrickson, the Supreme Court clarified that to prove an excessive
force claim in violation of the Fourteenth Amendment, a “pretrial detainee must
show only that the force purposely or knowingly used against him was objectively
unreasonable.” 135 S. Ct. 2466, 2473 (2015). This objective reasonableness
standard mirrors the standard an arrestee must meet to plead a violation of the
Fourth Amendment. See Graham, 490 U.S. at 397 (stating that in an excessive
force case “the question is whether the officers’ actions are objectively reasonable
in light of the facts and circumstances confronting them” (internal quotation marks
omitted)). So we turn to the question of whether Reed’s force was objectively
reasonable.
We gauge whether force is objectively unreasonable “from the perspective
of a reasonable officer on the scene.” Kingsley, 135 S. Ct. at 2473. We employ
the following factors to guide our analysis: (1) the relationship between the need
for the use of force and the amount of force used; (2) the extent of the plaintiff’s
injury; (3) any effort made by the officer to temper or to limit the amount of force;
(4) the severity of the security problem at issue; (5) the threat reasonably perceived
9

10a

Case: 18-10607

Date Filed: 02/21/2020

Page: 10 of 27

by the officer; and (6) whether the plaintiff was actively resisting. Id. (citing
Graham, 490 U.S. at 386).
Every Graham factor weighs in Quinette’s favor. The first factor is the most
significant here: the allegations establish that Reed had no need to use any force
on the non-resistant Quinette. According to the complaint, at the time of the
incident in question, Reed had closed the door on Quinette, and the door was ready
to latch. Quinette stood calmly at the door to the prison cell. He remained
“respectful and polite, never banging loudly on the cell door or window, never
yelling, and never causing any sort of disturbance.” Reed nevertheless reopened
the door, took a step inside the prison cell, and, using two hands, shoved Quinette
onto the floor. Reed argues that he used this force against Quinette because he
feared that Quinette’s fingers would be caught in the closing door. But that reason
does not hold up: Quinette alleges that Reed had already closed the door, so that it
made contact with the door frame and was ready to be latched, before Reed
reopened it and pushed Quinette.
On the second and third factors, Quinette’s injuries were severe, and Reed
made no effort to temper the amount of force used. Quinette suffered a broken hip
from Reed’s two-handed shove. According to the complaint, Reed never asked
Quinette to step away from the door. And rather than temper the force used, Reed
stepped into the push, making it all the more forceful. When interviewed as part of
10

11a

Case: 18-10607

Date Filed: 02/21/2020

Page: 11 of 27

the investigation into the incident, Reed allegedly admitted that the reason he used
so much force was because he was angry at Quinette.
As to the fourth and fifth factors, the severity of the threat posed and the
threat reasonably perceived by Reed, whatever security threat was posed by
unsecured but unresisting inmates in an intake cell did not justify, under the facts
alleged here, Reed’s two-handed shove. Quinette himself posed no threat to Reed;
he remained non-resistant, non-belligerent, and polite. Nor did a security situation
at the detention center create exceptional, exigent circumstances. Immediately
before Reed’s shove, Quinette and his cellmates were safely contained behind a
closed door that had just struck the latch. Yet Reed deliberately re-opened the
closed door, stepped into the cell, and physically engaged Quinette with no
warning.
Reed argues that Quinette threatened him by placing a hand on the cell door.
We see it differently, for two reasons. First, the complaint alleges that Quinette
used no force or pressure and neither attempted to nor actually prevented the door
from closing; Reed succeeded in closing the door all the way, to the point where it
made contact with the strike plate and could have latched. Second, Reed’s violent
shove was disproportionate to any threat posed by a prisoner’s hand simply
touching a door. Even if Quinette’s hand was reasonably perceived as a threat,
once Reed had closed the door, that threat ceased to exist.
11

12a

Case: 18-10607

Date Filed: 02/21/2020

Page: 12 of 27

Reed also argues that the presence of other inmates gave rise to a threat. He
asserts that “there were at least two inmates outside the cell door, two unrestrained
inmates inside the cell with Plaintiff (also standing near the unsecured door), and
no additional officers or deputies in sight.” Appellants’ Br. at 10-11. By contrast,
Quinette’s complaint alleges that there was only one inmate in the cell with him at
the time of the altercation.
The video footage of the cell—which we may consider because it was
properly incorporated by reference into the complaint—shows that there were two
other inmates in the cell with Quinette at the time of the altercation (one previously
in the cell, and one brought into the cell immediately before the incident). The
video also shows there were people outside the cell, but it does not reveal whether
they were inmates, jailers, or other personnel. Nor is it clear whether, if those
individuals were inmates, they were unrestrained, or in what way they might have
posed a threat to Reed as he closed the cell door. So while the video overrides the
complaint regarding how many inmates were inside the cell, it does not confirm
Reed’s account about any threat reasonably posed by persons outside the cell.2

2

At the motion to dismiss stage, we cannot accept Reed’s assertions that there were
inmates outside the cell door who might pose a threat and that there were no additional officers
or deputies in sight because we are limited to the plausible allegations in the complaint and any
inferences that may reasonably be drawn from them, along with the video. See Keating,
598 F.3d at 762 (recognizing that at the denial of the motion to dismiss stage, our review is
generally “limit[ed] . . . to the four corners of the complaint”).
12

13a

Case: 18-10607

Date Filed: 02/21/2020

Page: 13 of 27

The presence of two other unrestrained inmates inside the cell does not
render Reed’s use of force reasonable. As the video shows, none of the inmates
was resistant or belligerent. They were contained within an intake cell where the
door had closed and struck the latch. There is no basis for us to conclude that their
presence justified Reed’s conduct.
On the sixth factor, Quinette never resisted Reed. Reed said nothing to
Quinette: he gave no commands, warnings, instructions, or responses to Quinette’s
polite “excuse me,” and request for help. There was nothing to resist.
In sum, every Graham factor supports the conclusion that Reed “used force
that was plainly excessive, wholly unnecessary, and, indeed, grossly
disproportionate.” Lee, 284 F.3d at 1198. Reed’s application of a two-handed
shove to a non-resistant detainee, with sufficient force to knock that detainee to the
ground and to break his hip, constituted unreasonable force in violation of
Quinette’s constitutional right under the Fourth or Fourteenth Amendment.
Because Reed’s conduct violated Quinette’s constitutional right to be from
the use of excessive force, we next consider whether that constitutional right was
“clearly established” at the time of the violation. We conclude that it was.
B.

Clearly Established Law Demonstrates that Reed’s Conduct Was
Unconstitutional.
Reed argues that even if he used excessive force, he did not violate clearly

established law. A right is clearly established when a reasonable officer would
13

14a

Case: 18-10607

Date Filed: 02/21/2020

Page: 14 of 27

know that his conduct violates that right. See Coffin v. Brandau, 642 F.3d 999,
1013 (11th Cir. 2011) (en banc). We are concerned with whether the officer had
“fair warning” that his conduct would violate the right in question. Id. (internal
quotation marks omitted). A plaintiff can demonstrate that “the contours of the
right were clearly established” to the officer in several ways. Loftus v. ClarkMoore, 690 F.3d 1200, 1204 (11th Cir. 2012) (internal quotation marks omitted).
One way is by pointing to “earlier case law from the Supreme Court, this Court, or
the highest court of the pertinent state that is materially similar to the current case
and therefore provided clear notice of the violation.” Long v. Slaton, 508 F.3d 576,
584 (11th Cir. 2007). For an excessive force violation, the analysis is necessarily
fact-specific; prior cases need not involve mirror-image factual circumstances to
clearly establish that force was excessive. See Hope, 536 U.S. at 741 (“officials
can still be on notice that their conduct violates established law even in novel
factual circumstances”); Graham, 490 U.S. at 396 (requiring “careful attention to
the facts and circumstances of each particular case”).
Alternatively, a plaintiff may rely on the “obvious clarity rule”: a “narrow
exception” to the “rule requiring particularized case law to establish clearly the law
in excessive force cases.” Priester v. City of Riviera Beach, 208 F.3d 919, 926
(11th Cir. 2000); see Oliver v. Fiorino, 586 F.3d 898, 908 (11th Cir. 2009). To fall
within this exception, a plaintiff must identify conduct so egregious that it clearly
14

15a

Case: 18-10607

Date Filed: 02/21/2020

Page: 15 of 27

violated a constitutional right “even in the total absence of case law” to guide us.
See Lewis v. City of W. Palm Beach, 561 F.3d 1288, 1292 (11th Cir. 2009). Under
this exception, the question we ask is “whether application of the excessive force
standard would inevitably lead every reasonable officer in the Defendants’ position
to conclude the force was unlawful.” Priester, 208 F.3d at 926-27 (alterations
adopted) (internal quotation marks omitted).
With this framework in mind, we conclude that at the time of the incident in
this case the defendants were on notice that applying force on a non-resisting
pretrial detainee “violate[d] clear federal law.” Long, 508 F.3d at 584.
Reed relies on this Court’s decision in Cockrell v. Sparks to support his
argument that the law did not clearly establish the unconstitutional nature of his
conduct. 510 F.3d 1307 (11th Cir. 2007). Like this case, Cockrell involved a
§ 1983 claim brought by an incarcerated inmate who was shoved by a deputy. But
two factors distinguish Cockrell from this case. First, Cockrell was making a
disturbance: he was “banging on the door to his cell with his shoe” and “shouting
at the deputy.” Id. at 1310. Second, the defendant deputy faced an evolving
security situation; another inmate had unsuccessfully attempted suicide, and to
comply with jail policy, the deputy needed to move the suicidal inmate to the
“drunk tank” where Cockrell was housed. Id. at 1309. The deputy moved
Cockrell to the neighboring cell. While the deputy tended to the suicidal inmate,
15

16a

Case: 18-10607

Date Filed: 02/21/2020

Page: 16 of 27

Cockrell began shouting, banging on the door, and yelling at the deputy. Id. at
1309-10. The deputy left the suicidal inmate, went to Cockrell’s cell, told him to
shut up, and gave him an open-handed shove. Id. at 1310. We affirmed the grant
of summary judgment in that case because “Cockrell was creating a disturbance”
and the deputy “legitimately needed to quiet Cockrell” because of “the need to
relocate the inmate who had attempted suicide.” Id. at 1311. But even then, we
described it as a “close question.” Id. Neither factor exists in this case, however.
Here, Quinette was only ever “respectful and polite, never banging loudly on the
cell door or window, never yelling, and never causing any sort of disturbance.”
And no security situation, analogous to that posed by the suicidal inmate in
Cockrell, created a legitimate need for Reed to apply force.
While Cockrell does not help us resolve this case, our other precedent does.
Our decision in Hadley v. Gutierrez established that a single punch to a nonresisting detainee constitutes excessive force. 526 F.3d 1324, 1330 (11th Cir.
2008). In Hadley, the detainee had previously, while under the influence of
cocaine, run around a Publix supermarket yelling and knocking items off shelves.
Id. at 1327. But at the time the officer punched him, he was subdued, compliant,
and non-resistant. Id. We held that where a detainee is not resisting arrest,
gratuitous use of force—even a single punch—is excessive. Id. at 1330. We have
articulated the same principle in the Fourteenth Amendment context. See, e.g.,
16

17a

Case: 18-10607

Date Filed: 02/21/2020

Page: 17 of 27

Danley v. Allen, 540 F.3d 1298, 1309 (11th Cir. 2008) (under the Fourteenth
Amendment, “[o]nce a prisoner has stopped resisting there is no longer a need for
force, so the use of force thereafter is disproportionate to the need”), overruled on
other grounds as recognized in Randall v. Scott, 610 F.3d 701, 705 (11th Cir.
2010).
We have said that law is clearly established for the purposes of qualified
immunity where “‘Y Conduct’ is unconstitutional in ‘Z Circumstances.’” Vinyard
v. Wilson, 311 F.3d 1340, 1351 (11th Cir. 2002). Hadley established that a single
blow—“Y Conduct” —is unconstitutional where a detainee is non-resistant— “Z
Circumstances.” Here, too, there was a single blow to a non-resistant detainee.
Given this clearly established law, no objectively reasonable officer in Reed’s
position would think it lawful to shove a non-resisting detainee to the ground.
Because we conclude that Hadley and Danley put Reed on notice that his conduct
violated Quinette’s constitutional right, it is unnecessary for us to explore whether
the conduct was egregious enough to fall within the parameters of the “obvious
clarity rule.”
C.

Supervisory Liability
We next turn to whether Reed’s supervisors may be held liable for his

conduct. In this Circuit, a supervisor may be held responsible under 42 U.S.C.
§ 1983 for constitutional violations committed by subordinates where either (1) the
17

18a

Case: 18-10607

Date Filed: 02/21/2020

Page: 18 of 27

supervisor personally participated in the constitutional violation, or (2) there is a
causal connection between the supervisor’s actions and the constitutional violation.
Mathews v. Crosby, 480 F.3d 1265, 1270 (11th Cir. 2007). None of Reed’s
supervisors personally participated in Quinette’s injury, so we look to whether
there is a causal connection between their actions and the alleged constitutional
violation.
The standard we employ is “extremely rigorous.” Kerr v. Miami-Dade Cty.,
856 F.3d 795, 820 (11th Cir. 2017) (quoting Braddy v. Fla. Dep't of Labor & Emp't
Sec., 133 F.3d 797, 802 (11th Cir. 1998)). A plaintiff establishes a causal
connection where “a history of widespread abuse puts the responsible supervisor
on notice of the need to correct the alleged deprivation, and he fails to do so.”
Brown v. Crawford, 906 F.2d 667, 671 (11th Cir. 1990). Those deprivations “must
be obvious, flagrant, rampant and of continued duration” in order to provide
meaningful notice. Id.
Here, assuming the supervisors were on notice of a need to correct Reed’s
behavior, given his history of misconduct, they did not “fail[] to do so.” Id. The
facts alleged in the complaint show that the Cobb County Sherriff’s Office did
investigate the complaints against Reed and did discipline him for the instances of
misconduct that were substantiated.

18

19a

Case: 18-10607

Date Filed: 02/21/2020

Page: 19 of 27

The complaint identified three previous excessive-force allegations. All
three were investigated, and two were substantiated. Both resulted in formal
discipline. Reed was given a written reprimand for his first substantiated violation
and was also required to undergo a course in “defensive tactics.” For his second
substantiated violation, he received a written reprimand and was required to
undergo “counseling related to the proper response to verbal abuse from inmates.”
In addition to these incidents, two other (non–excessive-force) substantiated
investigations resulted in suspensions—a one-day suspension for misrepresentation
and a two-day suspension for treating certain favored inmates differently than
others. And of course, Reed was fired because of the abuse at issue in this case.
The supervisors likely could have (and, as it turns out, should have) done
more to discipline Reed—but given the discipline imposed, their conduct did not
violate clearly established law. In City of Escondido v. Emmons, the Supreme
Court emphatically instructed lower courts “not to define clearly established law at
a high level of generality.” 139 S. Ct. 500, 503 (2019). In other words, the
“precedent must be clear enough that every reasonable official would interpret it to
establish the particular rule the plaintiff seeks to apply.” District of Columbia v.
Wesby, 138 S. Ct. 577, 590 (2018). Here, to deny the Supervisor Defendants
qualified immunity, we must conclude that they were on notice that a failure to
punish a subordinate’s misconduct with sufficient severity (or anything besides
19

20a

Case: 18-10607

Date Filed: 02/21/2020

Page: 20 of 27

termination)—as opposed to a failure to investigate or provide discipline at all—
was a violation of clearly established law that could expose them to personal
liability.
We cannot reach this conclusion. In this Circuit, the published excessiveforce cases imposing supervisory liability appear to all involve supervisors who
took no action when aware of their subordinate’s unlawful conduct. See, e.g.,
Danley, 540 F.3d at 1315 (supervisors “did not discipline known incidents, and did
not conduct additional training despite knowledge that pepper spray was being
improperly used on a regular basis by jailers and that inmates were being denied
proper treatment after spraying incidents”); Valdes v. Crosby, 450 F.3d 1231, 1244
(11th Cir. 2006) (warden took no action in response to evidence of widespread
beatings and torture by prison guards); Fundiller v. City of Cooper City, 777 F.2d
1436, 1442 (11th Cir. 1985) (supervisor “failed to take corrective steps although he
was aware of police use of unlawful, excessive force”).
Here though, the supervisors did investigate and act when they became
aware of Reed’s misconduct. While reasonable minds may disagree about the level
of discipline necessary to prevent further misconduct, the sanctions imposed here
were real—up to and including suspension. Thus, even in the light most favorable
to Quinette, his claim bears distinct differences from the circumstances present in
Danley, Valdes, and Fundiller.
20

21a

Case: 18-10607

Date Filed: 02/21/2020

Page: 21 of 27

The case of Depew v. City of St. Marys, 787 F.2d 1496, 1497 (11th Cir.
1986) is no benefit to Quinette either. Initially, Depew involves municipal liability,
not supervisory liability, and that case does not reveal whether the officer who
used excessive force was the same officer who was disciplined. And the discipline
imposed in Depew, in any event—a verbal reprimand, was de minimis compared to
the discipline imposed on Reed. We decline to stretch Depew to fit the extremely
rigorous standard required here.
Because our caselaw does not lead to a conclusion that Supervisor
Defendants violated clearly established law, they may not be held liable for Reed’s
unconstitutional conduct.
D.

State Law Claim
We turn now to Quinette’s state law claim. Georgia state officials and

employees are immune from liability for damages under the doctrine of official
immunity—except where “they act with actual malice or with actual intent to cause
injury in the performance of their official functions.” Ga. Const. art. 1, § II, para.
IX(d). Because it is undisputed that Reed was acting in his official capacity at the
time of the incident, to overcome official immunity Quinette’s complaint must
show that Reed acted with actual malice or intent to cause injury. The district court
correctly concluded that Quinette sufficiently alleged that Reed acted with actual
malice by shoving Quinette.
21

22a

Case: 18-10607

Date Filed: 02/21/2020

Page: 22 of 27

Under Georgia law, “actual malice” is “a deliberate intention to do wrong,
[that] does not include implied malice, i.e., the reckless disregard for the rights or
safety of others.” Murphy v. Bajjani, 647 S.E.2d 54, 60 (Ga. 2007) (internal
quotation marks omitted). A deliberate intention to do wrong is “the intent to
cause the harm suffered by the plaintiff[].” Id.
Here, under the facts alleged, there is no question that Reed intended to
cause harm to Quinette. Reed intentionally reopened the closed cell door, stepped
forward, and applied force without any apparent reason on a non-resistant detainee.
Such a use of force—without any conceivable justification—manifests “a
deliberate intention to do wrong” and defeats Reed’s official immunity. Id.
Although one would not expect Reed’s shove to lead to the serious harm that
Quinette ultimately suffered, the unexpected extent of Quinette’s injury does not
neutralize, let alone immunize, Reed’s initial misconduct. Put differently, the harm
intended by Reed was the unjustified shove itself; that Quinette unexpectedly
broke his hip further along the causal chain is irrelevant to our official immunity
analysis. Consistent with this conclusion, the longstanding rule in Georgia is that
“a tortfeasor takes a plaintiff in whatever condition he finds him.” AT Sys. Se., Inc.
v. Carnes, 613 S.E.2d 150, 153 (Ga. 2005) (quoting Coleman v. Atlanta Obstetrics
& Gynecology Group, 390 S.E.2d 856 (Ga. 1990)). And, more particularly, a

22

23a

Case: 18-10607

Date Filed: 02/21/2020

Page: 23 of 27

wrongdoer “must bear the risk that his liability will be increased” depending on the
actual physical condition of his victim. Id.
Under Georgia law, a “factfinder may infer from evidence that a defendant
acted with actual malice.” Lagroon v. Lawson, 759 S.E.2d 878, 883 (Ga. Ct. App.
2014). Given the facts alleged in this complaint, a jury could properly conclude
that Reed acted with “actual malice.” We therefore affirm the denial of official
immunity.
IV.

CONCLUSION

We affirm the district court’s denial of qualified and official immunity to
Reed, but reverse and remand to the district court with instructions to dismiss
Quinette’s supervisory liability claim.
AFFIRMED IN PART, REVERSED AND REMANDED IN PART.

23

24a

Case: 18-10607

Date Filed: 02/21/2020

Page: 24 of 27

WILSON, Circuit Judge, concurring in part and dissenting in part:
I concur in the affirmance of the district court’s denial of qualified and
official immunity to Reed. However, I would affirm the district court’s denial of
qualified immunity based on supervisory liability. Accepting Quinette’s
allegations as true, Reed’s extensive history of using excessive force toward
inmates was sufficient to put the supervisors on notice of his misconduct, and was
sufficiently blatant to require them to act.
First, Quinette alleges that Reed was the subject of an internal affairs
investigation in 2005. An inmate with a colostomy bag accused Reed of using
excessive force by twisting the inmate’s waist cuffs, causing his colostomy bag to
rupture. There were no eyewitnesses or video recordings of this incident. It was
determined that there was no violation of department policy, and no disciplinary
action was taken against Reed.
Quinette further alleges that Reed was the subject of a second internal affairs
investigation in 2006. There, Reed shoved a restrained inmate—face first—onto
the floor, lacerating the inmate’s lip to such a degree that he needed stitches and
went to the hospital. This incident was captured on video. The internal affairs
investigation concluded that Reed had used excessive force, issued him a written
reprimand, and required him to complete a refresher course on defensive tactics.

24

25a

Case: 18-10607

Date Filed: 02/21/2020

Page: 25 of 27

Quinette alleges that Reed was subject to a third internal affairs investigation
in 2009. There, Reed placed an inmate into a headlock and attempted to pull that
inmate to the floor. Because the inmate was chained to a group of inmates, Reed
pulled the entire group back and forth during the altercation. This incident was
captured on video. The internal affairs investigation concluded that Reed used
excessive force, gave him another written reprimand, and required him to receive
counseling regarding appropriate responses to inmates’ “verbal abuse.”
Quinette alleges that all of the supervisors were aware that Reed had a
history of excessive use of force. Specifically, he alleges that defendant Alder
personally requested the 2006 internal affairs investigation, and defendants Coker,
Beck, and Bartlett were notified of the investigation. He further alleges that Coker
conducted the 2009 internal affairs investigation into excessive force; that Beck,
Bartlett, Alder, Prince, and Craig were present at the hearing; and that Warren was
appraised of its results. Quinette also alleges that, in the course of the 2009
investigation, some supervisors reviewed Reed’s personnel file, which included the
2005 and 2006 reports of excessive force, as well as other instances in which Reed
was found to have violated department policy. In addition, in 2014, Quinette
alleges, defendants Prince, Warren, Beck, Bartlett, and Craig again reviewed
Reed’s personnel file for the purposes of an internal affairs investigation into
Reed’s pattern of using “racial epithets, profanity, and threats towards inmates”
25

26a

Case: 18-10607

Date Filed: 02/21/2020

Page: 26 of 27

and his “continued propensity to los[e] his temper with inmates.” The complaint
further alleges that, in 2015, defendants Craig, Prince, Beck, and Warren once
again reviewed Reed’s personnel file for the purposes of yet another internal
affairs investigation into Reed’s behavior—this time for alleged favoritism towards
inmates and violations of detention center policy.
Reed’s history of “obvious, flagrant, [and] rampant” use of excessive force
and related conduct, such as using racial epithets, profanity, and threats, and losing
his temper with inmates provided meaningful notice to the supervisors that they
needed to correct a constitutional violation. See Brown v. Crawford, 906 F.2d 667,
671 (11th Cir. 1990). Indeed, of the three prior, separate investigations into Reed’s
excessive use of force, two involved pushing an inmate to the floor. Three of those
internal affairs investigations were for using excessive force against restrained
inmates. Quinette has sufficiently alleged that each of the supervisors was aware
of Reed’s history of using excessive force, yet they failed to do anything to
“remedy the situation.” See Danley v. Allen, 540 F.3d 1298, 1315 (11th Cir. 2008),
abrogated on other grounds by Ashcroft v. Iqbal, 556 U.S. 662 (2009), as
recognized by Randall v. Scott, 610 F.3d 701, 709 (11th Cir. 2010).
Accepting the complaint’s well-pleaded allegations as true and construing
them in the light most favorable to Quinette, the supervisors knew of the danger
that Reed presented and took no action to appropriately supervise or discipline
26

27a

Case: 18-10607

Date Filed: 02/21/2020

Page: 27 of 27

him. The district court correctly determined that they were involved in internal
affairs investigations involving Reed in varying capacities, and each of them failed
to adequately discipline, supervise, or train Reed.
Since Quinette has sufficiently alleged that the supervisors violated his
clearly established constitutional rights, I would conclude that they are not entitled
to qualified immunity.

27

28a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 1 of 35

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DENNIS QUINETTE,
Plaintiff,
v.

CIVIL ACTION FILE
NO. 1:17-CV-1819-TWT

DILMUS REED, et al.,
Defendants.
OPINION AND ORDER
This is a civil rights action. It is before the Court on the Defendants’
Motion to Dismiss [Doc. 24]. For the reasons set forth below, the Defendants’
Motion to Dismiss [Doc. 24] is DENIED.
I. Background
The Plaintiff Dennis Quinette is a former inmate at the Cobb County
Detention Center (the “Detention Center”).1 This case arises out of an injury
that the Plaintiff allegedly sustained as the result of being shoved by the
Defendant Dilmus Reed, a former Cobb County Sheriff’s Office employee who
worked at the Detention Center. The Defendants Chief Lynda Coker, Chief
Deputy Milton Beck, Colonel Donald Bartlett, Colonel Lewis Alder, Colonel
Janice Prince, and Colonel Roland Craig were members of the command staff at

1

First Am. Compl. ¶ 13.

T:\ORDERS\17\Quinette\mtdtwt.wpd

29a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 2 of 35

the Detention Center during the events underlying this lawsuit.2 The Defendant
Sheriff Neil Warren was the Cobb County Sheriff and was tasked with operating
the Detention Center.3 These Defendants are collectively referred to as the
“Command Staff Defendants.”
On May 28, 2015, the Plaintiff was in custody at the Detention Center.
The Plaintiff alleges that he had recently been arrested and was undergoing the
booking and intake process at the jail.4 At the time of this incident, the Plaintiff
was housed in an intake holding cell.5 According to the Plaintiff, Reed opened
the door to his cell at 7:04 AM to escort another inmate into the cell.6 As Reed
was placing the other inmate in the cell, the Plaintiff stood in front of the cell
door and attempted to get Reed’s attention.7 According to the Plaintiff, he
wanted to make a phone call, and had stood at the cell door for a few minutes
to try to get Reed’s attention to request to do so. The Plaintiff alleges that he
respectfully attempted to flag down Reed, but Reed ignored him and started to
close the cell door.8 As the cell door was closing, the Plaintiff placed his hand on

2

Id. ¶¶ 3-8.

3

Id. ¶ 9.

4

Id. ¶ 14.

5

Id. ¶ 15.

6

Id. ¶ 17.

7

Id. ¶ 19.

8

Id. ¶ 21.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-2-

30a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 3 of 35

the window of the cell door.9 According to the Plaintiff, he did not touch the door
with any force or try to prevent Reed from closing the door, and the door began
to latch closed.10
Nevertheless, despite the Plaintiff’s calm and non-threatening demeanor,
Reed allegedly opened the door, took one large step forward, and, without
warning, forcefully thrust the Plaintiff with two hands toward the back of the
holding cell.11 The Plaintiff was thrown across the cell, landed on his left hip,
and began screaming in pain.12 Reed, ignoring the Plaintiff’s screams, closed the
cell door and walked away.13 Reed did nothing to attend to the Plaintiff’s
injury.14 Instead, he returned to the cell multiple times and made several
attempts to pull the Plaintiff up off the floor.15 Another officer then reported the
incident to medical officials at the Detention Center, and a nurse arrived to
attend to the Plaintiff seven minutes after he was thrown to the floor.16 The

9

Id. ¶ 23.

10

Id. ¶¶ 24-26.

11

Id. ¶ 35.

12

Id. ¶ 39.

13

Id. ¶ 40.

14

Id. ¶ 44.

15

Id. ¶¶ 45-53.

16

Id. ¶ 57.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-3-

31a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 4 of 35

Plaintiff was ultimately transported to an emergency room, where he was
diagnosed with a broken hip.17 This entire incident was captured on video.18
Reed was subsequently investigated for this incident.19 He admitted
during an internal affairs investigation that he “stepped into” the push, making
it more forceful.20 According to the Plaintiff, Reed also admitted that he used
this amount of force because he was mad at the Plaintiff.21 Reed claimed that he
used this force against the Plaintiff because he feared that the Plaintiff’s fingers
would get caught in the closing door.22 The internal affairs investigation
ultimately concluded that Reed failed to comply with the policies and procedures
of the Cobb County Sheriff’s Office by utilizing an unreasonable and unnecessary amount of force against the Plaintiff.23 Reed was then terminated from
Cobb County Sheriff’s Office.24

17

Id. ¶ 58.

18

Id. ¶ 18. This video was manually filed with the Court. [Doc. 22].

The gratuitous, unprovoked, and malicious violence of Reed can only be
appreciated by watching the tape.
19

Id. ¶ 59.

20

Id. ¶ 42.

21

Id. ¶ 60.

22

Id. ¶ 61.

23

Id. ¶ 65.

24

Id. ¶ 66.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-4-

32a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 5 of 35

According to the Plaintiff, Reed had a lengthy disciplinary history during
his time with the Cobb County Sheriff’s Office. He had previously been the
subject of twelve internal affairs investigations, and six of those investigations
were concluded to be “founded.”25 Three of those investigations were for use of
excessive force.26 The Plaintiff alleges that many of the Command Staff
Defendants were involved in these prior disciplinary actions and had knowledge
of Reed’s history.27 However, despite this history, Reed was not terminated from
his position until the incident in question occurred.28
On May 19, 2017, the Plaintiff filed this action. In his First Amended
Complaint, the Plaintiff alleges two claims against Reed. First, he asserts a
claim under 42 U.S.C. § 1983 for the use of excessive force in violation of the
Fourth and Fourteenth Amendments. Second, he asserts a state law claim for
assault and battery. The Plaintiff asserts a claim for violation of 42 U.S.C. §
1983 for supervisory liability against the Command Staff Defendants in their
individual capacities. The Defendants now move to dismiss.

25

Id. ¶ 68.

26

Id.

27

Id. ¶¶ 98, 107, 119.

28

Id. ¶ 70.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-5-

33a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 6 of 35

II. Legal Standard
A complaint should be dismissed under Rule 12(b)(6) only where it
appears that the facts alleged fail to state a “plausible” claim for relief.29 A
complaint may survive a motion to dismiss for failure to state a claim, however,
even if it is “improbable” that a plaintiff would be able to prove those facts; even
if the possibility of recovery is extremely “remote and unlikely.”30 In ruling on
a motion to dismiss, the court must accept the facts pleaded in the complaint as
true and construe them in the light most favorable to the plaintiff.31 Generally,
notice pleading is all that is required for a valid complaint.32 Under notice
pleading, the plaintiff need only give the defendant fair notice of the plaintiff’s
claim and the grounds upon which it rests.33

29

12(b)(6).
30

Ashcroft v. Iqbal, 129 S. Ct. 1937, 1949 (2009); FED. R. CIV. P.
Bell Atlantic v. Twombly, 550 U.S. 544, 556 (2007).

See Quality Foods de Centro America, S.A. v. Latin American
Agribusiness Dev. Corp., S.A., 711 F.2d 989, 994-95 (11th Cir. 1983); see also
Sanjuan v. American Bd. of Psychiatry and Neurology, Inc., 40 F.3d 247, 251
31

(7th Cir. 1994) (noting that at the pleading stage, the plaintiff “receives the
benefit of imagination”).

See Lombard’s, Inc. v. Prince Mfg., Inc., 753 F.2d 974, 975 (11th
Cir. 1985), cert. denied, 474 U.S. 1082 (1986).
32

33

See Erickson v. Pardus, 551 U.S. 89, 93 (2007).

T:\ORDERS\17\Quinette\mtdtwt.wpd

-6-

34a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 7 of 35

III. Discussion
A. Section 1983 Claims
The Defendants first argue that they are entitled to qualified immunity.
Qualified immunity exempts an officer from section 1983 liability under certain
circumstances.34 To be entitled to qualified immunity in the Eleventh Circuit,
an officer must show that he was acting within the scope of his discretionary
authority at the time of the alleged wrongful acts.35 Once the officer has proved
that he was within the scope of his discretionary authority, the Plaintiff must
show that the officer violated “clearly established statutory or constitutional
rights of which a reasonable person would have known.”36 In order to establish
that a reasonable officer would have known of a right, a plaintiff must show
development of law in a “concrete and factually defined context” such that a
reasonable officer would know that his conduct violated federal law.37 Two
questions are central to the qualified immunity defense. First, the Court must

34

See Pearson v. Callahan, 555 U.S. 223, 231 (2009).

Lee v. Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002). The parties
agree that Reed was acting within the scope of his discretionary authority. Defs.’
Mot. to Dismiss, at 10 n.4; Pl.’s Br. in Opp’n to Defs.’ Mot. to Dismiss, at 16 n.7.
35

36

Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).

37

Jackson v. Sauls, 206 F.3d 1156, 1164-65 (11th Cir. 2000).

T:\ORDERS\17\Quinette\mtdtwt.wpd

-7-

35a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 8 of 35

determine whether there was a violation of a constitutional right.38 Second, the
Court must then determine whether the right was clearly established.39
1. Constitutional Violation
First, the Court must determine whether the Defendants committed a
constitutional violation.“Claims involving the mistreatment of arrestees or
pretrial detainees in custody are governed by the Fourteenth Amendment’s Due
Process Clause instead of the Eighth Amendment’s Cruel and Unusual
Punishment Clause, which applies to such claims by convicted prisoners.”40 “In
deciding whether force deliberately used against a pretrial detainee is
constitutionally excessive in violation of the Fourteenth Amendment, ‘the

38

Hope v. Pelzer, 536 U.S. 730, 736-42 (2002).

39

Lee, 284 F.3d at 1194.

40

Cottrell v. Caldwell, 85 F.3d 1480, 1490 (11th Cir. 1996). There is

some question as to whether the Fourth Amendment or Fourteenth Amendment
governs this analysis. The Fourth Amendment protects arrestees from excessive
force during an arrest, while the Fourteenth Amendment protects a pretrial
detainee from excessive force. See Howell v. Houston Cty., Ga., No. 5:09-CV-402,
2011 WL 3813291, at *13 (M.D. Ga. Aug. 26, 2011).The Eleventh Circuit has
indicated that “the precise point at which a seizure ends (for purposes of Fourth
Amendment coverage) and at which pretrial detention begins (governed until a
conviction by the Fourteenth Amendment) is not settled in this Circuit.” Hicks
v. Moore, 422 F.3d 1246, 1253 n.7 (11th Cir. 2005). Some confusion exists among
courts as to what constitutional provision applies at different stages of the
criminal justice process. Howell, 2011 WL 3813291 at *13. The Eleventh Circuit
has not provided a clear standard to govern this question in close cases. Id.
However, since the Plaintiff had been in custody for some period of time when
this incident took place, the Court finds that the Fourteenth Amendment should
govern this analysis. See id. at *13-*19 (analyzing a broad range of case law and
determining that the Fourteenth Amendment governed an excessive force claim
by a detainee who was undergoing the intake process at a jail).
T:\ORDERS\17\Quinette\mtdtwt.wpd

-8-

36a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 9 of 35

pretrial detainee must show only that the force purposely or knowingly used
against him was objectively unreasonable.’”41
Objective reasonableness turns on the individual facts and circumstances
of a particular case.42 This determination must be made from the perspective of
a reasonable officer on the scene, and “[a] showing of the officer's state of mind
or subjective awareness that the force was unreasonable is not required in this
analysis.”43 The use of force is reasonable only if “a reasonable officer would
believe that this level of force is necessary in the situation at hand.”44 Several
factors are relevant to this determination, including “the relationship between
the need for the use of force and the amount of force used; the extent of the
plaintiff's injury; any effort made by the officer to temper or to limit the amount

Shuford v. Conway, 666 F. App’x 811, 815-816 (11th Cir. 2016)
(quoting Kingsley v. Hendrickson, 135 S. Ct. 2466, 2473 (2015)). The standard
41

previously used by the Eleventh Circuit to determine whether a defendant used
excessive force in violation of the Fourteenth Amendment, which required that
the plaintiff prove that the defendant applied the force maliciously or
sadistically to cause harm, has been abrogated by the Supreme Court’s decision
in Kingsley v. Hendrickson in 2015. In Kingsley, the Supreme Court held that
“a pretrial detainee must show only that the force . . . used against him was
objectively unreasonable.” Kingsley, 135 S. Ct. at 2473.
42

Kingsley v. Hendrickson, 135 S. Ct. 2466, 2473 (2015).

43

Shuford, 666 F. App’x at 816.

Lee v. Ferraro, 284 F.3d 1188, 1197 (11th Cir. 2002) (quoting
Willingham v. Loughnan, 261 F.3d 1178, 1186 (11th Cir. 2001)).
44

T:\ORDERS\17\Quinette\mtdtwt.wpd

-9-

37a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 10 of 35

of force; the severity of the security problem at issue; the threat reasonably
perceived by the officer; and whether the plaintiff was actively resisting.”45
Accepting the Plaintiff’s factual allegations as true, the Court concludes
that Reed’s use of force was objectively unreasonable. According to the Plaintiff’s
allegations, Reed, without warning, forcefully shoved the Plaintiff to the floor
when the Plaintiff was merely touching the cell door window as it closed. Under
the factors provided by the Supreme Court and the Eleventh Circuit as guidance
on this question, the Court concludes that Reed used excessive force when he
shoved the Plaintiff. As to the first factor, the relationship between the need for
the use of force and the amount of force used, the amount of force utilized was
disproportionate to the need for force. The Plaintiff, a 54 year old man who was
not as physically dominant as Reed, was merely touching the window of his cell
door. Even if Reed needed to respond with some type of force to have the
Plaintiff move away from the door, the violent shove that Reed used was out of
proportion with the force needed to resolve the situation.
Second, Reed made no effort to temper or limit the amount of force used.
Reed never verbally directed the Plaintiff to back away from the door, and did
not begin with a light amount of force. Instead, Reed immediately, and without
warning, forcefully shoved the Plaintiff away from the door. Reed also admitted

Shuford, 666 F. App’x at 816 (quoting Kingsley v. Hendrickson, 135
S. Ct. 2466, 2473 (2015)).
45

T:\ORDERS\17\Quinette\mtdtwt.wpd

-10-

38a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 11 of 35

that he stepped into the shove so as to add more force.46 According to the
Plaintiff, Reed made no attempt to peacefully resolve the situation before using
force against him. Therefore, this factor weighs in favor of finding a constitutional violation.
As to the third and fourth factors, under the facts alleged, there was no
severe security problem involved in this incident, and no reasonable threat
existed. Although it may have been necessary for Reed to make the Plaintiff step
away from the closing door, this did not present a serious risk of security to
Reed or the Detention Center. The Plaintiff was merely touching the door,
attempting to get Reed’s attention. Thus, a reasonable officer would not perceive
the threat presented to be serious. Finally, there is no indication that the
Plaintiff was actively resisting. Under the facts alleged, Reed gave the Plaintiff
no warning or instructions at all that the Plaintiff could have resisted in the
first place, nor did the Plaintiff engage in any physical acts that could be
construed as resisting. Instead, Reed immediately shoved the Plaintiff away
from the door without warning. Given these factors, the Court determines that
Reed’s actions were objectively unreasonable and in violation of the Plaintiff’s
Fourteenth Amendment right to be free from excessive force.

46

First Am. Compl. ¶ 42.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-11-

39a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 12 of 35

2. Clearly Established Law
Next, the Court must determine whether this constitutional right was
clearly established. “In this circuit, the law can be ‘clearly established’ for
qualified immunity purposes only by decisions of the U.S. Supreme Court,
Eleventh Circuit Court of Appeals, or the highest court of the state where the
case arose.”47 “This inquiry is limited to the law at the time of the incident, as
‘an official could not be reasonably expected to anticipate subsequent legal
developments.’”48 Although Kinglsey’s objective reasonableness standard
governs the analysis of the existence of a constitutional violation, it does not
govern this Court’s analysis of whether the unlawfulness of Reed’s conduct was
clearly established at the time it occurred, since Kingsley was decided after this
incident occurred.49 “Instead, in order to determine whether the clearly

47

Cir. 1997).

Jenkins v. Talladega City Bd. of Educ., 115 F.3d 821, 826 n.4 (11th

Shuford v. Conway, 666 F. App’x 811, 817 (11th Cir. 2016) (quoting
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)).
48

Jacoby v. Baldwin Cty., 666 F. App’x 759, 765 (11th Cir. 2016)
(“While Kingsley’s objective unreasonableness standard governs the existence
49

of a constitutional violation, that decision was issued after the restraint chair
incident took place, so it plays no part in our determining whether the
unlawfulness of Rowell and Keers’ conduct was clearly established at the time
it occurred.”); see also Belcher v. City of Foley, 30 F.3d 1390, 1400 n.9 (11th Cir.
1994) (“[Cases] . . . decided after the conduct in this case occurred . . . could not
have clearly established the law at the time of the conduct in this case.”).
T:\ORDERS\17\Quinette\mtdtwt.wpd

-12-

40a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 13 of 35

established requirement is met in this case, we look to pre-Kingsley case law,
which applied the old ‘sadistic or malicious’ standard for excessive force.”50
A constitutional right can be clearly established in three ways: “(1) case
law with indistinguishable facts clearly establishing the constitutional right; (2)
a broad statement of principle within the Constitution, statute, or case law that
clearly establishes a constitutional right; or (3) conduct so egregious that a
constitutional right was clearly violated, even in the total absence of case law.”51
The Plaintiff, admitting that there is no indistinguishable case law on point,
argues that this constitutional right was clearly established under the second
and third methods.52 The Plaintiff also argues that this right is clearly
established under a per se rule for violations of the Eighth and Fourteenth
Amendments.53 The Court agrees that this right was clearly established.
As to the second method, the Plaintiff has not shown that a broad
principle within the Constitution, statutes, or case law provides the necessary
precedent to clearly establish this right.54 Instead, the Plaintiff only points to

50

Jacoby, 666 F. App’x at 765.

Shuford, 666 F. App’x at 817 (citing Lewis v. City of W. Palm
Beach, 561 F.3d 1288, 1291-92 (11th Cir. 2009)).
51

52

Pl.’s Br. in Opp’n to Defs.’ Mot. to Dismiss, at 17.

53

Id.

54

See Lewis v. City of W. Palm Beach, Fla., 561 F.3d 1288, 1292 (11th

Cir. 2009) (“Here, case law does not provide the necessary precedent, either
specifically or through broad principles, to clearly establish the right.”).
T:\ORDERS\17\Quinette\mtdtwt.wpd

-13-

41a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 14 of 35

the excessiveness and egregiousness of Reed’s conduct, which is relevant to the
third inquiry, not this inquiry. Even assuming that Reed’s conduct was totally
egregious, this argument fails to identify a broad principle that can be discerned
from the Constitution, statutes, and case law that would have put the
Defendants on notice of the unconstitutionality of Reed’s conduct. The Plaintiff
does not identify a broad principle at all that would have put the Defendants on
notice of this right. Therefore, the Plaintiff fails to establish that this right was
clearly established under this second method.
Consequently, the Plaintiff must utilize the third method for proving that
a right is clearly established. Thus, only if Reed’s conduct was “so egregious and
unacceptable so as to have blatantly violated the Constitution would qualified
immunity be unavailable” to him.55 The Plaintiff’s allegations satisfy this
burden. “[T]o come within this narrow exclusion, ‘plaintiff must show that the
official's conduct was so far beyond the hazy border between excessive and
acceptable force that the official had to know he was violating the Constitution
even without case law on point.’”56 “This standard is met when every reasonable
officer would conclude that the excessive force used was plainly unlawful.”57

55

Id.

56

Id. (quoting Smith v. Mattox, 127 F.3d 1416, 1419 (11th Cir. 1997)).

57

Id.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-14-

42a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 15 of 35

Accepting the Plaintiff’s allegations as true, Reed’s egregious conduct
meets this standard. Reed’s push, which was totally unprovoked, was “so far
beyond the hazy border between excessive and acceptable force” that he must
have known that it was plainly unconstitutional. According to the Plaintiff, the
cell door had already begun to latch closed, and the Plaintiff merely placed his
hands on the window of the cell door to get Reed’s attention. Reed then reopened
the door, and in a fit of anger, violently thrust the Plaintiff toward the floor
without warning.58 Reed then stood over him, falsely claiming that the Plaintiff
had “rushed” him. This conduct was egregious enough and far enough beyond
the “hazy border” between excessive and acceptable force that Reed must have
known that he was violating the Plaintiff’s constitutional rights.59 Reed’s
conduct was “so violent and harsh to be considered an egregious violation of a
constitutional right.”60 The cell door had already latched closed and the Plaintiff
presented no security threat. Any reasonable officer, under the facts alleged,
would conclude that the force used by Reed was plainly unlawful. Therefore,

58

Reed’s allegations are supported by a surveillance video recording
of the incident [Doc. 22].

See Lee v. Ferraro, 284 F.3d 1188, 1199-1200 (11th Cir. 2002)
(concluding that officer who was physically abusive toward non-aggressive
arrestee blatantly violated the Constitution and was not entitled to qualified
immunity); Smith v. Mattox, 127 F.3d 1416, 1419 (11th Cir. 1997) (denying
qualified immunity to officer who broke the arm of an individual complying with
the officer’s orders).
59

60

Lewis, 561 F.3d at 1292.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-15-

43a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 16 of 35

since Reed’s conduct was a blatant violation of the Constitution, qualified
immunity is unavailable to him.
Alternatively, this right was also clearly established under a per se rule
for defeating qualified immunity. Ordinarily, a plaintiff must show both: (1) that
a constitutional or statutory right has been violated, and (2) that this right was
clearly established.61 However, the Eleventh Circuit has provided that, “[f]or
claims of excessive force in violation of the Eighth or Fourteenth Amendments
. . . a plaintiff can overcome a defense of qualified immunity by showing only the
first prong, that his Eighth or Fourteenth Amendment rights have been
violated.”62 The Eleventh Circuit created this rule because the subjective
element required to establish an excessive force violation of the Eighth or
Fourteenth Amendment “is so extreme that every conceivable set of circumstances in which this constitutional violation occurs is clearly established to be
a violation of the Constitution.”63
Therefore, the Plaintiff can overcome a qualified immunity defense if he
shows that Reed’s actions amount to a constitutional violation under the pre-

Kingsley standard. Under the pre-Kingsley standard, a jailor’s use of force

61

Fennell v. Gilstrap, 559 F.3d 1212, 1216 (11th Cir. 2009).

62

Id. at 1216-17.

63

Id. at 1217 (quoting Danley v. Allen, 540 F.3d 1298, 1310 (11th Cir.

2008)).

T:\ORDERS\17\Quinette\mtdtwt.wpd

-16-

44a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 17 of 35

violates the Fourteenth Amendment if it “shocks the conscience.”64 The use of
force “shocks the conscience” if it is applied “maliciously or sadistically for the
very purpose of causing harm,” instead of in a good faith effort to maintain
discipline.65 In determining whether force was applied maliciously and
sadistically to cause harm in violation of the Fourteenth Amendment, the
Eleventh Circuit considers the following factors: “a) the need for the application
of force; b) the relationship between the need and the amount of force that was
used; c) the extent of the injury inflicted upon the prisoner; d) the extent of the
threat to the safety of staff and inmates; and e) any efforts made to temper the
severity of a forceful response.”66 And, in considering these factors, the Court
must “give a wide range of deference to prison officials acting to preserve
discipline and security, including when considering decisions made at the scene
of a disturbance.”67
For similar reasons that Reed’s conduct was so egregious as to have
clearly violated the Constitution, his conduct also “shocks the conscience.” The
Plaintiff’s factual allegations show that Reed did not use this force in a goodfaith effort to maintain or restore discipline, since the Plaintiff did not represent
64

2008)).

Id. at 1217 (quoting Danley v. Allen, 540 F.3d 1298, 1307 (11th Cir.

65

Bozeman v. Orum, 422 F.3d 1265, 1271 (11th Cir. 2005).

66

Fennell, 559 F.3d at 1217 (citing Cockrell v. Sparks, 510 F.3d 1307,

1311 (11th Cir. 2007)).
67

Cockrell, 510 F.3d at 1311.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-17-

45a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 18 of 35

a threat to security.68 Instead, taking the Plaintiff’s allegations as true, Reed
acted maliciously and sadistically and with the purpose of causing harm to the
Plaintiff. Reed applied force because he was “mad” at the Plaintiff.69 As the
surveillance video shows, the Plaintiff had created no disturbance, and
presented no threat to the security of Reed or the Detention Center, since the
door had already closed. Under these circumstances, no reasonable officer would
have believed that such a use of force was necessary to maintain discipline in
the jail. Instead, taking the Plaintiff’s allegations as true, Reed, angered at the
Plaintiff, applied force against him in an effort to cause harm. Therefore, the
Plaintiff has adequately alleged that Reed acted maliciously and sadistically.
And, taking the factors listed above into account further supports the
conclusion that Reed’s force was applied maliciously and sadistically. As to the
first two factors, the need for force was low, and the amount of force applied was
disproportionate to that need. The Plaintiff, an older man who was smaller than
Reed, merely touched the window of the cell door as it closed. This presented
little need for the use of force because the Plaintiff’s actions did not represent
a risk of danger to staff or other inmates. As to the third factor, the extent of
injury inflicted, the Plaintiff suffered a broken hip that required a trip to the

68

Fennell, 559 F.3d at 1217.

69

First Am. Compl. ¶ 60.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-18-

46a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 19 of 35

emergency room.70 As to the fourth factor, the extent of the threat to the safety
of staff and inmates, the Plaintiff presented no serious threat to the staff or
other inmates. As the surveillance video shows, the Plaintiff patiently stood by
the cell door, and as it closed, placed his hand on the window. This presented no
real threat to others that would require Reed to act in such a manner. Finally,
as to the fifth factor, Reed made no effort to temper the severity of his forceful
response. According to the Plaintiff, Reed was completely unprovoked, and gave
the Plaintiff no warning before applying force. Reed also made no effort to
peacefully resolve the situation. Instead, he immediately utilized a forceful
shove, and then failed to summon medical attention. Therefore, each of these
factors points to the conclusion that Reed’s conduct shocks the conscience.
In Cockrell v. Sparks, the Eleventh Circuit applied these factors in a
similar situation and concluded that an officer, who opened a cell door and
shoved a drunk inmate to the floor, used reasonable force under the pre-

Kingsley standard.71 However, in that case, which the Eleventh Circuit noted
was a “close” case, the inmate was drunk, banging on the cell door, and
distracting officers from attending to another inmate who had attempted

70

The Eleventh Circuit has noted that this factor “may be outweighed
by the officer’s inability to reasonably anticipate the severity of the injury.”
Fennell, 559 F.3d at 1219. Reed may not have been able to reasonably anticipate
that his conduct would break the Plaintiff’s hip. Regardless, the other “shock the
conscience” factors still weigh in favor of finding a constitutional violation under
this standard.
71

Cockrell v. Sparks, 510 F.3d 1307, 1311 (11th Cir. 2007).

T:\ORDERS\17\Quinette\mtdtwt.wpd

-19-

47a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 20 of 35

suicide.72 Cockrell is distinguishable because the inmate there, who was loudly
banging on the cell door, had created a disturbance while the officers needed to
deal with the other inmate’s suicide attempt. As the court explained, “[t]hat the
minimal force was used to quiet Cockrell to care for another inmate in need of
medical attention, instead of for some other reason, also weighs against a
finding of excessive force.”73 Unlike the officer in Cockrell, Reed had no
legitimate reason to use force against the Plaintiff, and did not use force in a
good-faith effort to maintain discipline. And, unlike the officer in Cockrell, who
“immediately summoned medical assistance” and thereby “temper[ed] the
severity of [the] forceful response,” Reed never himself summoned medical
attention, and instead stood over the Plaintiff, accusing him of rushing the door.
Thus, since this case is distinguishable from the “close” case presented in

Cockrell, the Court finds that Reed’s actions meet the shock the conscience
standard and the Plaintiff can defeat qualified immunity under this per se rule.
3. Supervisory Liability
The Defendants also move to dismiss the Plaintiff’s claim against the
Command Staff Defendants for supervisory liability.74 Under section 1983
“[e]very person who, under color of any statute, ordinance, regulation, custom,

72

Id.

73

Id. at 1312.

74

Defs.’ Mot. to Dismiss, at 21.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-20-

48a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 21 of 35

or usage, of any State . . . subjects, or causes to be subjected, any citizen of the
United States . . . to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party injured.”75 It
“is well established in this circuit that supervisory officials are not liable under
§ 1983 for the unconstitutional acts of their subordinates on the basis of
respondeat superior or vicarious liability.”76 Supervisory liability under section
1983 “occurs either when the supervisor personally participates in the alleged
unconstitutional conduct or when there is a causal connection between the
actions of a supervising official and the alleged constitutional deprivation.”77
A causal connection may be established when: 1) a “history of
widespread abuse” puts the responsible supervisor on notice of the
need to correct the alleged deprivation, and he or she fails to do so;
2) a supervisor's custom or policy results in deliberate indifference
to constitutional rights; or 3) facts support an inference that the
supervisor directed subordinates to act unlawfully or knew that
subordinates would act unlawfully and failed to stop them from
doing so.78
The “standard by which a supervisor is held liable in [his] individual capacity
for the actions of a subordinate is extremely rigorous.”79 “The deprivations that

75

42 U.S.C. § 1983 (emphasis added).

76

Hartley v. Parnell, 193 F.3d 1263, 1269 (11th Cir. 1999) (internal

quotation marks omitted).
77

Cottone v. Jenne, 326 F.3d 1352, 1360 (11th Cir. 2003).

78

Valdes v. Crosby, 450 F.3d 1231, 1237 (11th Cir. 2006) (citing

Cottone, 326 F.3d at 1360).
79

Cottone, 326 F.3d at 1360 (internal quotation marks omitted).

T:\ORDERS\17\Quinette\mtdtwt.wpd

-21-

49a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 22 of 35

constitute widespread abuse sufficient to notify the supervising official must be
obvious, flagrant, rampant and of continued duration, rather than isolated
occurrences.”80
The Plaintiff does not allege that the Command Staff Defendants
personally participated in this incident. Instead, the Plaintiff argues that there
is a causal connection between the Command Staff Defendants and the
Plaintiff’s injury due to their failure to “adequately discipline, supervise, and
train Defendant Reed in the proper use of force with inmates, in controlling his
temper around inmates, and in following the policies of [the Detention Center]
and the Cobb County Sheriff’s Office as well as Georgia law.”81 The Court
concludes that the Plaintiff has sufficiently alleged the existence of this causal
connection between the Command Staff Defendants and the Plaintiff’s injury to
state a claim for supervisory liability under section 1983.
According to the Plaintiff’s factual allegations, Reed had an extensive
disciplinary history during his employment with the Cobb County Sheriff’s
Office, and the Command Staff Defendants played active roles in this disciplinary history as his supervisors. Reed was the subject of twelve internal affairs

80

Brown v. Crawford, 906 F.2d 667, 671 (11th Cir. 1990).

81

First Am. Compl. ¶ 165.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-22-

50a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 23 of 35

investigations.82 Six of those investigations were determined to be “founded.”83
Three of those investigations involved the use of excessive force.84
First, the Plaintiff alleges that Reed was the subject of an internal affairs
investigation in 2005. There, according to the Plaintiff, an inmate with a
colostomy bag accused Reed of using excessive force by twisting the inmate’s
waist cuffs so that his colostomy bag ruptured.85 There was no video recording
or eyewitness of this alleged incident.86 This allegation was determined to be
unfounded, and no disciplinary action was taken against Reed.87 Then, in 2006,
the Plaintiff alleges that Reed was the subject of another internal investigation
involving the use of excessive force. There, Reed was booking an inmate into the
Detention Center when the inmate made a comment that angered Reed.88 The
inmate at that time was restrained in waist chain cuffs.89 Reed, angered by the

82

Id. ¶ 68.

83

Id.

Id. ¶ 69. One of those allegations of excessive force was determined
to be “unfounded.” Id.
84

85

Id. ¶¶ 72-73.

86

Id. ¶ 74.

87

Id. ¶¶ 81-82.

88

Id. ¶ 84.

89

Id. ¶ 85.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-23-

51a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 24 of 35

comment, slammed the restrained inmate’s face onto the floor.90 The inmate was
sent to the hospital and received stitches.91 This incident was recorded on
video.92 Reed was found to have violated department policies by using excessive
force, and was given a written reprimand.93
Next, the Plaintiff alleges that in 2009 the Command Staff Defendants
conducted another internal investigation into the use of excessive force by
Reed.94 This investigation resulted from an incident where Reed attempted to
“slam” a restrained inmate to the ground with a headlock, while that inmate
was chained to a group of other inmates.95 Reed was angry at the inmate for
cursing at him.96 Reed, by slamming the inmate to the ground, pulled the entire
group of inmates back and forth.97 It was ultimately determined that Reed used
excessive force.98 During this investigation, the Command Staff Defendants
reviewed Reed’s entire personnel file, and became aware of his history of losing

90

Id. ¶ 87.

91

Id. ¶ 88.

92

Id. ¶ 89.

93

Id. ¶ 90.

94

Id. ¶ 132.

95

Id. ¶ 145.

96

Id. ¶¶ 93, 145.

97

Id. ¶ 94.

98

Id. ¶¶ 96, 145.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-24-

52a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 25 of 35

his temper and using violence against inmates.99 This included reviewing both
the 2005 and 2006 reports of excessive force by Reed.100 The Plaintiff alleges that
Colonel Alder was personally involved in this investigation, and that Chief
Coker, Chief Deputy Beck, and Colonel Bartlett were aware of the
investigation.101 During this investigation, these Command Staff Defendants
were also made aware of several other instances where Reed violated department policy.102 Nonetheless, according to the Plaintiff, the Command Staff
Defendants did not terminate Reed or assign him different duties.103 Instead,
they issued a reprimand and required Reed to undergo informal counseling.104
The Plaintiff further alleges that Reed was the subject of yet another
internal affairs investigation in 2014. There, Reed was alleged to have engaged
in conduct unbecoming of an officer.105 This conduct included a “pattern” of use
of “racial epithets, profanity, and threats towards inmates,” along with Reed’s

99

Id. ¶¶ 134-35.

100

Id. ¶ 135.

101

Id. ¶ 135.

102

Id. ¶ 136.

103

Id. ¶¶ 137-38.

104

Id. ¶ 139.

105

Id. ¶¶ 142-146.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-25-

53a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 26 of 35

“continued propensity to los[e] his temper with inmates.”106 During this
investigation, Colonel Prince, Sheriff Warren, Chief Deputy Beck, Colonel
Bartlett, and Colonel Craig reviewed Reed’s entire personnel file, including the
previous incidents involving Reed using excessive force and losing his temper.107
After this investigation, the Command Staff Defendants merely issued a verbal
reprimand to Reed.108 They did not terminate Reed or assign him different
duties.109 Instead, they allowed him to continue working as a jailor in the
Detention Center.110
And, in May 2015, Reed was once again the subject of an internal affairs
investigation. This investigation involved allegations of favoritism toward
inmates and violations of department policy.111 Specifically, Reed allowed
segregation inmates to remain outside of segregation longer than Detention
Center policy allowed, and also allowed a favored inmate out of his cell in
violation of Detention Center policy.112 These actions resulted in a fight between

106

Id. ¶ 155. This conduct included a wide range of profane language

and inappropriate conduct directed at both inmates and a nurse at the
Detention Center. See id. ¶ 102.
107

Id. ¶¶ 143-45.

108

Id. ¶ 149.

109

Id. ¶ 147.

110

Id. ¶ 148.

111

Id. ¶ 152.

112

Id. ¶ 117.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-26-

54a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 27 of 35

segregation inmates.113 Colonel Craig, Colonel Prince, Chief Deputy Beck, and
Sheriff Warren participated in the investigation, and Sheriff Warren conducted
the hearing.114 Once again, these Command Staff Defendants reviewed Reed’s
entire personnel file, including the previous internal affairs investigations.115 On
May 18, 2015, ten days before the incident underlying this action occurred, the
Command Staff Defendants suspended Reed for 16 hours for violating these
policies.116 The Plaintiff alleges that a number of other internal affairs
investigations into Reed’s conduct were conducted over the course of his
employment.117
These allegations are sufficient to state a claim for supervisory liability
under section 1983. Taken together, these allegations show that Reed exhibited
a history of widespread abuse that should have put the Command Staff
Defendants on notice of the need to correct the alleged deprivations.118 The
Plaintiff alleges that each of the Command Staff Defendants participated in
internal affairs investigations into Reed’s conduct, where they should have
113

Id. ¶ 118.

114

Id. ¶ 119.

115

Id. ¶¶ 153-54.

Id. ¶ 116. Reed’s suspension was scheduled for June 1-2, 2015.
However, he never served his scheduled suspension because the incident
involving the Plaintiff occurred first, resulting in Reed’s termination. Id. ¶ 120.
116

117

Id. ¶¶ 110-20.

118

See Cottone v. Jenne, 326 F.3d 1352, 1360 (11th Cir. 2003).

T:\ORDERS\17\Quinette\mtdtwt.wpd

-27-

55a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 28 of 35

become aware of Reed’s extensive disciplinary history of violence toward
inmates. According to the Plaintiff, the supervisors involved in each of those
investigations familiarized themselves with Reed’s personnel file, including his
disciplinary history. Accepting these allegations as true, the Command Staff
Defendants knew of the danger that Reed presented, but took no action to
appropriately supervise or discipline him. Instead, the Command Staff
Defendants provided Reed with verbal and written reprimands, and never
assigned him different duties. According to the Plaintiff’s allegation, the
Plaintiff’s injury was not an isolated incident, but instead part of a pattern of
abuse by Reed, of which the Command Staff Defendants were aware.119 The
Plaintiff alleges that all of the Command Staff Defendants were involved in
these internal affairs investigations in varying capacities, and each of them
failed to take action to adequately discipline, supervise, or train Reed.120 This

See Valdes v. Crosby, 450 F.3d 1231, 1244 (11th Cir. 2006)
(“[I]nmate abuse at the hands of guards was not an isolated occurrence, but
rather occurred with sufficient regularity as to demonstrate a history of
widespread abuse at FSP.”).
119

120

First Am. Compl. ¶¶ 162-65. There may be some question as to
whether each of the individual Command Staff Defendants actually possessed
the authority to train, discipline, terminate, or otherwise supervise Reed. If an
individual Defendant did not possess that authority over Reed, the causal
connection between that Defendant’s failure to act and the Plaintiff’s injury
would be broken. However, the Plaintiff has alleged that each Command Staff
Defendant failed to adequately discipline, supervise, and train Reed. At this
stage of the proceedings, where the Court accepts the Plaintiff’s factual
allegations as true, the Court finds that it is appropriate to deny the motion to
dismiss. This question will be more appropriate to address at the summary
judgment phase.
T:\ORDERS\17\Quinette\mtdtwt.wpd

-28-

56a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 29 of 35

failure to act by the Command Staff Defendants constitutes the necessary causal
connection between the Command Staff Defendants and the Plaintiff’s injury to
state a claim for supervisory liability.121
Furthermore, the Command Staff Defendants are not entitled to qualified
immunity on this issue. The Eleventh Circuit has provided that it is clearly
established “that a supervisor could be held responsible under 42 U.S.C. § 1983
for constitutional violations committed by subordinates if the supervisor
personally participated in the constitutional violation or if there was a causal
connection between the supervisor's actions and the alleged constitutional

121

See id. at 1239-44 (concluding that supervising officer’s knowledge

of widespread instances of abuse and excessive force at a prison was enough to
create the causal connection needed for supervisory liability); see also McCreary
v. Parker, 456 F. App’x 790, 793 (11th Cir. 2012) (concluding that supervisor’s
“alleged knowledge of the increasing frequency of inmate-on-inmate violence,
Judge Edelstein’s report, and allegations that inmates had repeatedly
complained to Parker about being quartered with dangerous inmates and
Parker’s failure to correct same notwithstanding his ability to do so” was
sufficient to impose supervisory liability); Danley v. Allen, 540 F.3d 1298, 1315
(11th Cir. 2008) (“This Court has long recognized that supervisors are liable for
the excessive force and the deliberate indifference of their employees where the
supervisors received numerous reports of prior misconduct of that nature by
those same employees and did nothing to remedy the situation.”); cf. Cottone v.
Jenne, 326 F.3d 1352, 1361-62 (11th Cir. 2003) (concluding that the plaintiffs
did not establish the necessary causal connection when the complaint failed to
allege that the supervisors had any knowledge of the subordinate officers’
“failure to monitor inmates” or that the subordinate officers “had any past
history, or even one prior incident, of failing to monitor inmates” and that the
“supervisors were not on any notice of [the subordinate officers’]
unconstitutional conduct so as to put the supervisors on notice of the need to
correct or to stop the[ir] conduct . . . by further training or supervision”).
T:\ORDERS\17\Quinette\mtdtwt.wpd

-29-

57a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 30 of 35

deprivation.”122 Accepting the Plaintiff’s allegations as true, Reed’s extensive
history of using excessive force and violence toward inmates was sufficient to
put the Command Staff Defendants on notice of his misconduct and was
sufficiently blatant to require them to act.123 Therefore, since the Plaintiff has
alleged that the Command Staff Defendants violated his clearly established
constitutional rights, they are not entitled to qualified immunity.124
B. State Law Claim
Next, the Defendants move to dismiss the Plaintiff’s state law claim. In
Count II, the Plaintiff asserts claims for assault and battery under O.C.G.A. §§
51-1-13 and 51-1-14 against Reed.125 The Defendants move to dismiss these
claims, arguing that the claims are barred by sovereign immunity and official
immunity.126
122

Williams v. Santana, 340 F. App’x 614, 617 (11th Cir. 2009).

123

See id. at 618 (“Taking Williams's allegations as true, as we must

do at this stage of the proceedings, the numerous prior incidents involving
Barazal’s use of force were sufficient to put Parker on notice of misconduct that
was sufficiently ‘obvious, flagrant, rampant and of continued duration’ to require
him to act.”).
124

Id. at 618 (“Williams alleges that Parker failed to respond to these

prior incidents of misconduct by providing Barazal with increased training or
supervision; thus, Williams has alleged the necessary causal connection to hold
Parker liable in his supervisory capacity. Because Barazal has alleged that
Parker violated his clearly established constitutional rights, the district court
did not err in denying qualified immunity at the motion to dismiss stage of the
proceedings.”).
125

First Am. Compl. ¶¶ 126-28.

126

Defs.’ Mot. to Dismiss, at 23-27.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-30-

58a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 31 of 35

First, the Defendants argue that state law claims brought against Reed
in his official capacity are barred by sovereign immunity.127 Under Georgia law,
“the constitutional doctrine of sovereign immunity forbids [Georgia] courts to
entertain a lawsuit against the State without its consent.”128 This sovereign
immunity extends to suits against the state, its departments and agencies, and
its officers acting in their official capacities.129 “The sovereign immunity
provided in the Georgia Constitution to the state or any of its departments or
agencies also applies to Georgia’s counties.”130 “Sovereign immunity is not an
affirmative defense that the governmental defendants must establish.”131
Rather, the Plaintiff has the burden of establishing that sovereign immunity
does not bar his claim.132 The Plaintiff argues that the state has waived its
sovereign immunity in this context through the Georgia bond statutes, and that
“he should be permitted to proceed against the bond of the sheriff and his
deputies.”133

127

Id. at 24.

128

Lathrop v. Deal, 301 Ga. 408 (2017).

129

Id.

Presnell v. Paulding Cty, Ga., 454 F. App’x 763, 769 (11th Cir.
2011) (citing Gilbert v. Richardson, 264 Ga. 744, 747 (1994)).
130

131

Scott v. City of Valdosta, 280 Ga. App. 481, 484 (2006).

132

See id. (“[Sovereign Immunity] is a privilege, subject to waiver by

the State, and which the party seeking to benefit from the waiver must show.”).
133

Pl.’s Br. in Opp’n to Defs.’ Mot. to Dismiss, at 27-28.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-31-

59a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 32 of 35

O.C.G.A. § 15-16-5 states that sheriffs must provide a $25,000 bond
“conditioned for the faithful accounting for all public and other funds or property
coming into the sheriffs’ or their deputies’ custody, control, care, or
possession.”134 Similarly, O.C.G.A. § 15-16-23 states that each deputy must
provide a $5,000 bond “conditioned upon the faithful accounting for all public
and other funds or property coming into the deputy’s custody, control, care, or
possession.”135 These statutes waive sovereign immunity for the official actions
of a sheriff when sued on the sheriff’s bond.136 In such a situation, the plaintiff’s
recovery is limited to the amount of the applicable bond.137 And, “a bond given
under the authority of a statute ‘can provide no more protection than that which
is required by [the] statute.’”138 Thus, actions against a sheriff’s bond under
these statutes are limited to those dealing with the sheriff’s faithful accounting
of public funds and other funds or property in his or her possession. The state
has not waived sovereign immunity as to other types of actions brought against
sheriffs and their deputies in their official capacities. For this reason, the
Plaintiff’s state law claim for assault and battery against Reed in his official

134

O.C.G.A. § 15-16-5.

135

O.C.G.A. § 15-16-23.

Pelka v. Ware Cty., Ga., CV 516-108, 2017 WL 4398652, at *5 (S.D.
Ga. Sept. 29, 2017) (citing Cantrell v. Thurman, 231 Ga. App. 510, 514 (1998)).
136

137

Id. (citing Meeks v. Douglas, 112 Ga. App. 742, 745 (1965)).

138

Lord v. Lowe, 318 Ga. App. 222, 226 (2012).

T:\ORDERS\17\Quinette\mtdtwt.wpd

-32-

60a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 33 of 35

capacity is barred by sovereign immunity because it does not involve the faithful
accounting of public funds or property.
The Defendants next argue that the Plaintiff’s state law claim against
Reed in his individual capacity is barred by official immunity.139 Under Georgia
law, “[i]ndividual government employees are shielded by official immunity from
damages suits unless the plaintiff can establish that the official negligently
performed a ministerial act or performed a discretionary act with malice or an
intent to injure.”140 “Official immunity . . . is applicable to government officials
and employees sued in their individual capacities.”141
The parties agree that Reed was performing a discretionary act.
Therefore, the Plaintiff will need to show actual malice to overcome official
immunity.142 “In the context of official immunity, ‘actual malice requires a
deliberate intention to do wrong and denotes express malice or malice in fact.’”143
“Actual malice requires more than harboring bad feelings about another.”144
“While ill will may be an element of actual malice in many factual situations, its

139

Defs.’ Mot. to Dismiss, at 25-27.

140

Glass v. Gates, 311 Ga. App. 563, 574 (2011).

141

Stone v. Taylor, 233 Ga. App. 886, 888 (1998).

142

Merrow v. Hawkins, 266 Ga. 390, 391 (1996).

Peterson v. Baker, 504 F.3d 1331, 1339 (11th Cir. 2007) (quoting
Adams v. Hazelwood, 271 Ga. 414 (1999)).
143

144

Adams v. Hazelwood, 271 Ga. 414, 415 (1999).

T:\ORDERS\17\Quinette\mtdtwt.wpd

-33-

61a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 34 of 35

presence alone cannot pierce official immunity; rather, ill will must also be
combined with the intent to do something wrongful or illegal.”145 “[M]alice in this
context means badness, a true desire to do something wrong.”146 And, “‘actual
intent to cause injury’ means ‘an actual intent to cause harm to the plaintiff, not
merely an intent to do the act purportedly resulting in the claimed injury.’”147
The Supreme Court of Georgia has noted that an officer who uses force
intentionally and without justification acts with the actual intent to cause
injury.148
The Plaintiff’s allegations meet this burden. As discussed above, Reed
applied force against the Plaintiff maliciously and sadistically, and not in a good
faith effort to maintain security at the Detention Center. Reed, who was mad at
the Plaintiff, shoved him intentionally and without justification. This push was
unprovoked and unjustified. Thus, under Georgia law, he acted with ill will and
the intent to cause an injury.149 The Plaintiff has adequately alleged that Reed

145

Id.

146

Peterson, 504 F.3d at 1339.

147

Id. (quoting Kidd v. Coates, 271 Ga. 33 (1999)).

148

Kidd v. Coates, 271 Ga. 33 (1999) (quoting Gardner v. Rogers, 224

Ga. App. 165, 169 (1996)).
149

Id.

T:\ORDERS\17\Quinette\mtdtwt.wpd

-34-

62a

Case 1:17-cv-01819-TWT Document 32 Filed 01/18/18 Page 35 of 35

acted with actual malice, and Reed is not entitled to official immunity as to the
Plaintiff’s state law claim.150
IV. Conclusion
For the reasons stated above, the Defendants’ Motion to Dismiss [Doc. 24]
is DENIED.
SO ORDERED, this 18 day of January, 2018.

/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

150

See, e.g., Tabb v. Veazey, No. 1:05-cv-1642, 2007 WL 951763, at *12

(N.D. Ga. Mar. 28, 2007) (concluding that an officer acted with actual malice
when he hit the plaintiff with the butt of a handgun several times before placing
him in handcuffs).
T:\ORDERS\17\Quinette\mtdtwt.wpd

-35-

63a

USCA11 Case: 18-10607

Date Filed: 10/23/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10607-JJ
________________________
DENNIS QUINETTE,
Plaintiff - Appellee,
versus
DILMUS REED,
CHIEF LYNDA COKER,
CHIEF DEPUTY MILTON BECK,
COLONEL DONALD BARTLETT,
COLONEL LEWIS ALDER, et al.,
Defendants - Appellants.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: WILSON and GRANT, Circuit Judges, and MARTINEZ,* District Judge.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

* Honorable

Jose E. Martinez, United States District Judge for the Southern District of Florida, sitting
by designation.

ORD-46

64a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 1 of 44

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DENIS QUINETTE,
Plaintiff,
Civil Action
File No. 1:17-cv-01819-TWT

v.
DILMUS REED, CHIEF LYNDA
COKER, CHIEF DEPUTY MILTON
BECK,
COLONEL
DONALD
BARTLETT, COLONEL LEWIS
ALDER,
COLONEL
JANICE
PRINCE,
COLONEL
ROLAND
CRAIG,
and
SHERIFF
NEIL
WARREN
Defendants.

FIRST AMENDED COMPLAINT
On May 28, 2015, Defendant Dilmus Reed, then a jailer at the Cobb
County Detention Center (“CCDC”), violently shoved Plaintiff Denis Quinette
into a jail cell, causing Plaintiff to fall and suffer a broken hip. Plaintiff had
not done anything to justify this use of violence and Defendant Reed was
fired for his actions.
This was not Defendant Reed’s first disciplinary action. Defendant
Reed had been the subject of twelve prior internal affairs investigations, and
was found to have violated policy six times – twice for excessive force.
1

65a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 2 of 44

Despite the clear warning signs, it took Defendant Reed violently breaking an
inmate’s hip before his superiors finally deemed Defendant Reed too
dangerous to supervise inmates.
This is an action for money damages brought pursuant to O.C.G.A. §§
51-1-13 and 51-1-14, as well as 42 U.S.C. §§ 1983 and 1988 and the Fourth
and Fourteenth Amendments to the United States Constitution, against
Defendant Reed for his unnecessary use of violence against Plaintiff. In
addition, this is an action for supervisory liability against the Cobb County
Sheriff and CCDC command staff who failed to adequately terminate,
discipline, or train Defendant Reed after an extensive disciplinary history,
including two verified incidents of unwarranted violence against inmates,
and who created a custom, pattern, and practice that allowed jailers to ignore
written policies and to receive no retribution or punishment for violating
those policies.
Parties, Jurisdiction, and Venue
1. Plaintiff is a natural person and citizen of the United States of
America, residing in Cobb County, Georgia, and is of full age.
2. Defendant Dilmus Reed is an individual who was, at all times relevant
to the allegations in this complaint, an employee of the Cobb County
Sheriff’s Office, employed at the CCDC, acting under color of law.
2

66a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 3 of 44

3. Defendant Chief Lynda Coker is an individual who was, at all times
relevant to the allegations in this complaint, an employee of the Cobb
County Sheriff’s Office, employed at the CCDC as a member of
command staff, acting under color of law.
4. Defendant Chief Deputy Milton Beck is an individual who was, at all
times relevant to the allegations in this complaint, an employee of the
Cobb County Sheriff’s Office, employed at the CCDC as a member of
command staff, acting under color of law.
5. Defendant Colonel Donald Bartlett is an individual who was, at all
times relevant to the allegations in this complaint, an employee of the
Cobb County Sheriff’s Office, employed at the CCDC as a member of
command staff, acting under color of law.
6. Defendant Colonel Lewis Alder is an individual who was, at all times
relevant to the allegations in this complaint, an employee of the Cobb
County Sheriff’s Office, employed at the CCDC as a member of
command staff, acting under color of law.
7. Defendant Colonel Janice Prince is an individual who was, at all times
relevant to the allegations in this complaint, an employee of the Cobb
County Sheriff’s Office, employed at the CCDC as a member of
command staff, acting under color of law.
3

67a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 4 of 44

8. Defendant Colonel Roland Craig is an individual who was, at all times
relevant to the allegations in this complaint, an employee of the Cobb
County Sheriff’s Office, employed at the CCDC as a member of
command staff, acting under color of law.
9. Defendant Sheriff Neil Warren is an individual who was, at all times
relevant to the allegations in this complaint, Sheriff of Cobb County,
tasked with operating the CCDC and a member of the CCDC command
staff, acting under color of law.
10.

This action is brought pursuant to 42 U.S.C. §§1983 and 1988, as

well as the Fourth and Fourteenth Amendments of the United States
Constitution. Jurisdiction is founded upon 28 U.S.C. §§1331, 1343, and
the aforementioned constitutional and statutory provisions.
11.

All the parties herein are subject to the personal jurisdiction of

this Court.
12.

Venue is proper in this Court pursuant to 28 U.S.C. §1391(b) and

N.D.L.R. 3.1B(3) because the event giving rise to this claim occurred in
Cobb County, Georgia, which is situated within the district and
divisional boundaries of the Atlanta Division of the Northern District of
Georgia,

4

68a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 5 of 44

Facts
13.

On or about May 28, 2015, Plaintiff was in custody at the Cobb

County Detention Center.
14.

Plaintiff had recently been arrested and was going through the

intake and booking process when this incident occurred.
15.

According to CCDC records, Plaintiff was housed in Intake

Holding Cell #10. Plaintiff was still in the intake are of the jail and
had not yet been transported into general population.
16.

At the time, the CCDC had begun but not completed the intake

and booking process.
17.

At approximately 7:04 a.m., Defendant Reed opened the door to

Intake Holding Cell #10 to escort another inmate1 into the cell.
18.

This entire incident was captured on video.

19.

As Defendant Reed was allowing the other inmate in to the cell,

Plaintiff was standing in front of the cell door hoping to get a jailer’s
attention.

The term “inmate” here is used in its colloquial sense. It should not be
taken as a representation regarding the status of a person in custody in
terms of whether the custody is governed by the Fourth or Fourteenth
Amendments.
1

5

69a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 6 of 44

20.

Plaintiff had been standing at the door to the cell for a few

minutes hoping to flag down a jailer to make a phone call, and Plaintiff
can be heard on the video saying, “excuse me,” to Defendant Reed when
Defendant Reed opened the cell door.
21.

While Plaintiff had been hoping to flag down a jailer, he

nevertheless remained respectful and polite, never banging loudly on
the cell door or window, never yelling, and never causing any sort of
disturbance.
22.

Rather than addressing Plaintiff’s concern or question, Defendant

Reed started to close the door on Plaintiff.
23.

When Defendant Reed started to close the door, Plaintiff placed

his hand on the window in the center of the door as it was closing.
24.

Plaintiff did not use any force or pressure in placing his hand on

the window, he was not pushing on the window, and he was not
preventing Defendant Reed from closing the door.
25.

In fact, the door can be heard making contact with the frame in

the video recording of the incident, demonstrating that Defendant Reed
was not prevented from closing the door.
26.

Or, more specifically, the latch can be heard making contact with

the strike plate.
6

70a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 7 of 44

27.

At that point, since Plaintiff was not pushing on the window or

applying any pressure to the window at all, and since Defendant Reed
had the door closed so far that the latch was in contact with the strike
plate, Defendant Reed was not impeded or prevented from closing the
door in any way.
28.

Defendant Reed easily could have finished closing the door and

walked away.
29.

At that point, Plaintiff was not resisting any officer.

30.

At that point, Plaintiff was not presenting a threat of any kind to

anybody – jailer, inmate, or otherwise.
31.

At that point, Plaintiff was not causing a disturbance.

32.

At that point, Plaintiff was not pushing on the door to the cell or

applying any force or pressure to the door of the cell, and no reasonable
person could have believed that he was pushing on the cell door or
trying to get out of the cell.
33.

At that point, Plaintiff’s hand was on the glass window of the cell

door and was therefore visible to Defendant Reed, who was standing on
the other side of the door.
34.

Because Plaintiff’s hand was on the glass window of the cell door,

and because the door was closed almost all the way (the latch was
7

71a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 8 of 44

already in contact with the strike plate), no reasonable person could
believe that Plaintiff’s hand was in danger of being injured by the door
35.

Then, rather than pushing the door the final few millimeters

required for the latch to engage and the door to be shut and secured,
Defendant Reed opened the door all the way, took one large step
forward, and with two hands forcefully thrust Plaintiff toward the back
of the cell.
36.

Immediately before Defendant Reed thrust Plaintiff across the

cell, Plaintiff had put his hands up in a submissive posture.
37.

Prior to thrusting Plaintiff across the cell, Defendant Reed gave

Plaintiff no warning of any sort. Defendant Reed did give Plaintiff any
instruction, direction, command, order, or any other indication that
Plaintiff was doing anything wrong.
38.

It is also notable that Defendant Reed was a more physically

imposing person than Plaintiff. Plaintiff was then 54 years old and was
quite visibly not a particularly strong or physically dominant
individual. Defendant Reed, in contrast, presented a bullishly strong
figure.
39.

Plaintiff was thrown to the floor and landed on his left hip. In

the video, Plaintiff can be heard screaming in pain.
8

72a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 9 of 44

40.

Ignoring Plaintiff’s screams, Defendant Reed slammed the door

and walked away.
41.

Doctors would later determine that Plaintiff had suffered an

“acute left subcapital hip fracture” – a broken hip.
42.

Defendant Reed would acknowledge during the ensuing internal

affairs investigation that he “stepped into” pushing Plaintiff. In other
words, Defendant Reed did not push Plaintiff while standing in one
place; he stepped into Plaintiff’s space and heaved Plaintiff forcefully
across the cell.
43.

Defendant Reed would also later acknowledge that he should not

have stepped into the shove, and that this level of force was not
necessary.
44.

Over the next hour after the incident, Defendant Reed did

nothing to mitigate the effects of Plaintiff’s severe injury.
45.

Defendant Reed returned to the cell after a minute or so while

Plaintiff was still lying on his side in pain.
46.

Defendant stood over Plaintiff, grabbed Plaintiff’s arms, and tried

to pull Plaintiff off the ground. Plaintiff was unable to stand since his
hip was broken.

9

73a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 10 of 44

47.

Defendant Reed can also be heard in the video loudly proclaiming

to Plaintiff that he had pushed Plaintiff because “You tried to rush me!”
When Plaintiff protested this account, Defendant Reed leaned over
Plaintiff and yelled, “Yes you did! Yes you did!”
48.

Defendant Reed thus attempted to cover up his illegal use of force

by creating a false justification for the use of violence and by
intimidating Plaintiff in an attempt to force him to agree with
Defendant Reed’s false account, all while Plaintiff was lying on the
ground writhing in pain.
49.

Defendant Reed then left the cell, escorting another inmate, at

which point another jailer, Sergeant Peipmeier, stood over Plaintiff
demanding, “so what’s your malfunction today?”
50.

Defendant Reed re-entered the cell about a minute later, walked

over to where Plaintiff was still lying on the ground, and continued to
argue with Plaintiff about whether he had pushed Plaintiff to the
ground.
51.

Defendant Reed then, again, grabbed Plaintiff’s arms to try to

drag Plaintiff to his feet. Plaintiff again began screaming in pain.

10

74a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 11 of 44

52.

Defendant Reed stopped trying to drag Plaintiff to his feet and

Plaintiff rolled slowly onto his stomach while visibly in extreme pain.
Plaintiff can be seen in the video writhing and screaming in pain.
53.

Defendant Reed then stood over Plaintiff for another few minutes

arguing that Plaintiff had pushed the door to the holding cell.
54.

Plaintiff can be heard in the video screaming in pain and telling

Defendant Reed that he can’t get up. Defendant Reed can be heard
saying, “Yes you can. Yes you can.”
55.

Plaintiff can then be heard saying, “I can’t bend my leg;”

Defendant Reed can be heard scoffing, “Yeah, right.”
56.

At no point did Defendant Reed attempt to get medical attention

for Plaintiff.
57.

Ultimately, Sergeant Peipmeier left the cell to report the incident

to medical, and a nurse arrived more than seven minutes after Plaintiff
was thrown to the ground.
58.

Over the next hour, medical staff and jailers entered and exited

the cell, trying to determine how to treat Plaintiff. After about an hour,
an ambulance crew finally arrived to take Plaintiff to the emergency
room where he was diagnosed with a broken hip.
59.

Defendant Reed was investigated after the incident.
11

75a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 12 of 44

60.

When Defendant Reed was interviewed in conjunction with the

internal affairs investigation, he acknowledged that he had used such
an amount of force against Plaintiff because he was mad at Plaintiff.
61.

Defendant Reed further claimed that he used such force against

Plaintiff out of a fear that Plaintiff’s fingers would be caught in the
door.
62.

Of course, Plaintiff’s hand was on the window, not next to the

latching mechanism, so Defendant Reed’s claimed justification for his
use of force is contradicted by the video.
63.

Moreover, Defendant Reed already had the door’s latch in contact

with the strike plate when he decided to re-open the door, so it would
have been factually impossible for Plaintiff’s fingers to get caught in
the door.
64.

Defendant Reed ultimately acknowledged that he used more force

than was necessary
65.

The internal affairs inspection concluded as follows:
On May 28, 2015, you [Defendant Reed] failed to
comply with the policies, procedures, rules, and
regulations of the Cobb County Sheriff’s Office when
you utilized an unreasonable and unnecessary
amount of force against Inmate Denis Quinette
(SOID # 000210119). Your failure to maintain proper
decorum resulted in Inmate Quinette being pushed to
12

76a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 13 of 44

the ground resulting in physical injuries that
required medical attention and admittance to the
hospital for care. Your behavior resulted in a conflict
of interest with this agency based on your infractions
of established policy and procedures.
66.

Defendants Warren, Craig, Prince, and Beck all signed onto and

agreed with the conclusion of the internal affairs investigation, that
Defendant Reed “utilized an unreasonable and unnecessary amount of
force” against Plaintiff.
67.

Defendant Reed was terminated for this attack.
Defendant Reed’s Previous Disciplinary Incidents

68.

Defendant Reed was the subject of twelve internal affairs

investigations during his tenure with the CCDC. Six of those internal
affairs investigations were concluded as “founded” or “sustained,”
meaning that Defendant Reed was found to have violated department
policy six times before he was eventually terminated.
69.

Most importantly here, three of those internal affairs

investigations were for using excessive force against restrained
inmates, with the first complaint being deemed “unfounded” because
there was no evidence definitively supporting the inmate’s account over
Defendant Reed’s, but the second and third were deemed “founded”
because the incidents were captured on video.
13

77a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 14 of 44

70.

Despite this lengthy history of department violations, losing his

temper with inmates, and repeated incidents of excessive force,
Defendant Reed was never terminated, nor was he adequately
disciplined, supervised counseled, or trained. Instead, Defendant Reed
was allowed to continue on in a position where he would be in control if
inmates without direct supervision.
71.

In other words, the supervisors at the CCDC turned a blind eye

to Defendant Reed’s repeated transgressions, creating a pattern of
unchecked use of excessive force against inmates and ensuring that
Defendant Reed would ultimately cause a serious injury to an inmate.
January 11, 2005 Excessive Force
72.

On January 11, 2005, an inmate who had a colostomy bag filed a

grievance with the CCDC that Defendant Reed had used excessive force
against him.
73.

The inmate complained that Defendant Reed had twisted the

chains of the inmate’s waist cuffs, which had the effect of rupturing the
inmate’s colostomy bag, causing extreme discomfort and some bleeding.
74.

The encounter was not captured on video and there were no

eyewitnesses other than the inmate and Defendant Reed.

14

78a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 15 of 44

75.

The inmate reported in an inmate grievance that, during the

incident, he told Defendant Reed that Defendant Reed was “bursting”
the inmate’s colostomy bag, and Defendant Reed told the inmate to
“shut up” or “[his] colostomy bag wasn’t all that would be busted,” and
rammed the inmate’s head into a closed door.
76.

The inmate did not threaten Defendant Reed, use force, or take

any other action that would have justified a use of force by Defendant
Reed.
77.

Defendant Reed disputed the inmate’s complaint, but Defendant

Reed gave inconsistent versions of what occurred.
78.

First, Defendant Reed wrote in his report: “I took hold of the back

of his waist chains and escorted him to R-Pod. [The inmate] informed
me that he had a colostomy bag, he did not say anything else to me
after that. He did not ask for medical attention nor did he appear to be
in any type of distress.”
79.

When interviewed during the internal affairs investigation,

however, Defendant Reed claims that he never heard anything about a
colostomy bag until he was informed later. Defendant Reed claimed
that he did smell a foul odor while escorting the inmate, but that he did

15

79a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 16 of 44

not know the origin of the foul odor, and that the waist chain could
have caused the bag to rupture.
80.

Documents produced by the Cobb County Sheriff’s Officer

pursuant to an open record request do not contain the findings of the
internal affairs investigation, though there is a notation that no CCDC
officer was found to have violated department policy.
81.

Since there was no video and there were no other witnesses, the

complaint was essentially the inmate’s word against Defendant Reed’s.
82.

Upon information and belief, therefore, no disciplinary action was

taken against Defendant Reed in response to this incident.
83.

Regardless, the complaint put Command Staff Defendants on

notice that Defendant Reed had a propensity toward losing his temper
and using violence towards inmates.
March 27, 2006 Excessive Force
84.

On March 27, 2006, Defendant Reed was booking an inmate at

the sally port of the CCDC when the inmate angered Defendant Reed
with a comment, “you’ll come in my restaurant and get drunk all the
time but next time you won’t leave that way.”
85.

The inmate was restrained in waist chain cuffs at the time.

16

80a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 17 of 44

86.

The inmate did not threaten Defendant Reed, use force, or take

any other action that would have justified a use of force by Defendant
Reed.
87.

In retaliation for the inmate’s comment Defendant Reed slammed

the handcuffed inmate face-first the floor..
88.

The inmate suffered a severely lacerated lip and was sent to the

hospital to receive stitches.
89.

Unlike the 2005 incident, the 2006 incident was captured on

video.
90.

In the ensuing internal affairs investigation, Defendant Reed was

found to have used excessive force in violation of the Cobb County
Sheriff’s Office’s policies. Defendant was given only a written
reprimand and required to go to a “refresher” on defensive tactics
training; he was not suspended and he lost no pay.
September 9, 2009 Excessive Force
91.

On September 9, 2009, Defendant Reed was escorting a group of

inmates out of intake. The group of inmates were all handcuffed to
each other in a “chain gang” configuration.
92.

Defendant Reed was walking beside one inmate who was

complaining about the size of his uniform. The inmate ultimately
17

81a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 18 of 44

cursed at Defendant Reed during this interaction, though the inmate
did not threaten Defendant Reed, use force against Defendant Reed, or
take any other action that would have justified the use of force by
Defendant Reed.
93.

After the inmate cursed at him, Defendant Reed grabbed the

inmate’s arm and grabbed the inmate in a headlock to take the inmate
to the floor.
94.

Because the inmate was chained to a group of inmates, the entire

group was pulled back and forth and another deputy had to run over to
release the inmate from the chain.
95.

The incident was captured on surveillance video.

96.

In the ensuing internal affairs investigation, Defendant Reed was

found to have used excessive force in violation of the Cobb County
Sheriff’s Office’s use of force and force management policies. Defendant
was given a written reprimand and was to be given “counseling related
to the proper response to verbal abuse from inmates” by Defendants
Alder and Prince.
97.

The internal affairs hearing was conducted by Defendant Coker.

Command staff present at the hearing were Defendants Beck, Bartlett,
Alder, Prince, and Craig. Defendant Warren was appraised of the
18

82a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 19 of 44

internal affairs investigation and its results, and he approved of the
results. Defendants Coker, Beck, Bartlett, Alder, Prince, Craig, and
Warren are hereinafter “Command Staff Defendants.”
98.

Again, after Defendant Reed used excessive force against a

restrained inmate the only disciplinary action he received was a
reprimand; he was not suspended and he lost no pay. Defendant Reed
was also to be given informal “counseling related to the proper response
to verbal abuse from inmates” by Defendants Alder and Prince.
99.

On information and belief, this informal “counseling” contained

no actual documentation, no written teaching materials, no lesson plan,
and no testing at its conclusion; it was simply an informal conversation
among Defendants Reed, Alder, and Prince.
2014 Conduct Unbecoming an Officer
100.

Defendant Reed was found to have violated Cobb County Sheriff’s

Office’s policies by using unprofessional and profane language toward
inmates in late 2013 and 2014.
101.

The internal affairs investigation was initiated because there

were “excessive grievances” made against Defendant Reed between late
2013 and 2014.

19

83a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 20 of 44

102.

Late 2013 and 2014 grievances against Defendant Reed included

the following:
a. A nurse at the jail complained that Defendant Reed sat at a desk
with his legs open and asked the nurse to “look at this” in a
sexual nature. Defendant Reed confirmed this account to his
superior.
b. An inmate complained that Defendant Reed came into his cell,
noticed a Qu’ran, and said, “get that shit outta here.”
c. An inmate stated that Defendant Reed “has talked about my
girlfriend, my children, and my deceased father,” and that
Defendant Reed sent the inmate to a new Pod without socks or
underwear, making the inmate leave behind his personal
belongings and photographs “just to be nasty.”
d. An inmate reported that Defendant Reed “comes to work like he
has a vengance [sic] … He demoralizes us speaks about our
wives.”
e. An inmate stated that Defendant Reed “is harassing me all the
time with ugly abusive language. He calls me nigger and bitch
and makes comments about me that questions my sexual

20

84a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 21 of 44

orientation, queer, faggot, that kind of stuff. He is cruel and
won’t leave me alone.”
f. An inmate stated that “Deputy Reed is verbally abusing me
constantly, calling me ‘nigger,’ ‘bitch,’ ‘pussy,’ ‘little girl,’ and
making references to my mother. He does this loudly in front of
other inmates and as a result, I get humiliated and teased.”
g. An inmate complained that when he tried to explain a
discrepancy in a disciplinary report to Defendant Reed,
Defendant Reed told the inmate to “get the fuck out of here.”
h. An inmate reported asking Defendant Reed for new clothing and
a hygiene kit because the inmate had been wearing the same
clothes for seven days, and that Defendant Reed responded, “get
the fuck out of my face and sit the fuck down.”
i. A Muslim inmate complained that Defendant Reed told him that
he could not have his Qu’ran on the table and “[his] religion is
shit.”
j.

An inmate reported the Defendant Reed “curse[d] me out badly”
and told the inmate “he runs this motherfucker.”

k. An inmate filed a grievance stating that when he arrived in
Defendant Reed’s Pod, Defendant Reed “immediately started
21

85a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 22 of 44

threatening, antagonizing, basically singling me out and made a
statement, ‘I am DOC [Department of Corrections].’ I asked him
if he meant that as a threat. He responded, ‘you’ll see.’”
l. An inmate reported that Defendant Reed took the inmate’s
armband so that the inmate could not get his meals.
m. An inmate with a “two mat profile” (requires accommodation for
medical issue) for a herniated disc filed a grievance because
Defendant Reed “took the mat and call me a nigga he is very rude
and disrespectful to inmates …”
n. An inmate reported that Defendant Reed came into his cell,
accused the inmate of calling him a name, “then he call[ed] me a
nigger.”
o. An inmate complained, “[Defendant Reed has] been using his
authority to make my time harder by talking about my mother
and picking at me every time he comes in the dorm … [He] has no
problem letting everyone know[] that he’s going to pick on
someone and belittle them in front of everyone!”
103.

While Defendant Reed denied almost all the specific allegations

in the specific grievances, Defendant Reed did acknowledge using
profanity around inmates and the internal affairs adjudication found
22

86a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 23 of 44

the complaint as “sustained.” The adjudication did not indicate exactly
which of the 15+ grievances were deemed to be founded.
104.

Defendant Reed also admitted that he had been previously

counseled for his language at the jail by his supervisors.
105.

As a result of the internal affairs investigation, Defendant was

given only a verbal reprimand.
106.

The internal affairs investigation was conducted by Lieutenant

Mehling and Investigator Carter, and ultimately reviewed and closed
without hearing by Defendant Prince.
107.

Defendants Warren, Beck, Bartlett, and Craig were appraised of

the investigation and its results, and approved of the results.
108.

Yet again, after Defendant Reed demonstrated an inability to

control his temper with inmates, the only disciplinary action he
received was a verbal reprimand; he was not suspended, he lost no pay,
and he remained allowed to oversee inmates without direct supervision.
109.

Moreover, there was no counseling or training associated with

the internal affairs finding.

23

87a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 24 of 44

Other Internal Affairs Investigations
110.

Defendant Reed was given a one-day suspension when he failed

to conduct a required headcount on April 17, 2000, then knowingly
misrepresented that a headcount had been conducted.
111.

In August of 2005, Defendant Reed was given a verbal reprimand

for approaching a Bartow County citizen who had pulled over to ask for
directions, displaying a badge to the citizen, and ordering the citizen to
move – all because the citizen was delaying Defendant Reed’s commute.
The citizen reported that Defendant Reed was acting “irate” and that
he had the demeanor of a person who was exhibiting symptoms of
steroid abuse.
112.

In September of 2005, Defendant Reed improperly had a Cobb

County Police Department officer run a tag for him to determine the
owner of an abandoned vehicle on his property. Defendant Reed’s
supervisor, Major Hunton, told Defendant Reed that running a GCIC
search for personal reasons was improper, but no disciplinary action
was taken.
113.

In fact, pursuant to O.C.G.A. § 35-3-38(a), misuse of GCIC is a

felony punishable by up to two years in prison. In failing to take action
beyond telling Defendant Reed that misuse of GCIC is improper,
24

88a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 25 of 44

Command Staff Defendants thus turned a blind eye to Defendant
Reed’s criminal conduct.
114.

Moreover, the GCIC Rules, enacted pursuant to Georgia law and

articulated by Department of Human Services Office of Inspector
General, mandate that all local agencies are required to have
disciplinary procedures for the violations of GCIC rules, to take
disciplinary action against an employee who violates the GCIC rules,
and to report any such violations to the GCIC in writing.2 By closing
his eyes to Defendant Reed’s clear violation of GCIC rules, Major
Hunton ignored a criminal offense and violated GCIC rules in doing so.
115.

In June of 2008, Defendant Reed was arrested on a Bartow

County Probate Court bench warrant for failure to appear. Defendant
Reed had been named guardian of a financial settlement awarded to
his daughter after an accident, and he had forfeited the entire
settlement by using it as collateral on a personal loan on which he
defaulted. The court appearance Defendant Reed missed was
associated with Defendant Reed’s failure to file an annual return with

2

See Disciplinary Measures for Misuse of GCIC/NCIC Criminal Justice Information, available at
http://odis.dhs.ga.gov/ChooseCategory.aspx?cid=1396 (last visited 5/18/17); GCIC Rule 140-2-.09, available at
https://gbi.georgia.gov/sites/gbi.georgia.gov/files/imported/vgn/images/portal/cit_1210/38/8/88224162GCIC%20Ru
les%202007%20Final.pdf (last visited 5/18/17).

25

89a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 26 of 44

the court, which would have revealed the forfeiting of the account. The
internal affairs investigation into this matter was closed as
“documentation only” and Defendant Reed was not disciplined.
116.

On May 18, 2015, only ten days before the incident with Plaintiff

here, Defendant Reed was suspended for 16 hours after he violated the
rules concerning the supervision of inmates in segregation housing.
117.

Specifically, Defendant Reed allowed segregation inmates to

remain outside of segregation for longer than CCDC policy allowed and
allowed a favored inmate out of his cell in violation of CCDC policy.
118.

Defendant Reed’s violations of policy resulted in a fight between

segregation inmates and involving a Special Management Level 1
inmate (the highest and most dangerous level of inmate classification).
119.

Defendants Beck, Craig, and Prince were present and

participated in the internal affairs hearing, and Defendant Warren
conducted the hearing and ultimately sent Defendant Reed the notice
of his suspension.
120.

Defendant Reed’s suspension was scheduled for June 1 and 2,

2015, but Defendant Reed was never reached that point because the
incident with Plaintiff and his termination occurred first.

26

90a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 27 of 44

COUNT I
Section 1983 – Excessive Force (Defendant Reed)
121.

The preceding paragraphs are incorporated herein by reference

as though fully set forth.
122.

Defendant Reed used excessive force against Plaintiff in violation

of the Fourth and Fourteenth Amendments of the U.S. Constitution
when he violently shoved Plaintiff to the ground, breaking Plaintiff’s
hip, while Plaintiff was not resisting any jailer, was not causing a
disturbance, and did not pose a threat to any person.
123.

Because the booking process was not complete and Plaintiff was

still in a holding cell when the incident occurred, the Fourth
Amendment governs the analysis and Defendant Reed’s use of force
was excessive and unreasonable under the Fourth Amendment.
124.

In the alternative, if the use of force is examined under the

Fourteenth Amendment, Defendant Reed’s use of force was excessive
and unreasonable under the Fourteenth Amendment.
125.

Plaintiff claims damages for the injuries set forth above under 42

U.S.C. § 1983 against Defendant Reed for violations of Plaintiff’s
constitutional rights under color of law.

27

91a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 28 of 44

COUNT II
State Law – Assault and Battery (Defendant Reed)
126.

The preceding paragraphs are incorporated herein by reference

as though fully set forth.
127.

Defendant Reed committed assault and battery against Plaintiff

in violation of O.C.G.A. §§ 51-1-13 and 51-1-14 when he violently
shoved Plaintiff to the ground, shattering Plaintiff’s hip, while Plaintiff
was not resisting any jailer and did not pose a threat to any person.
128.

Plaintiff claims damages for the injuries set forth above under

O.C.G.A. §§ 51-1-13 and 51-1-14 against Defendant Reed for violations
of Plaintiff’s rights under Georgia law.
COUNT III
Section 1983 – Supervisory Liability
(Command Staff Defendants, Individual Capacity)
129.

The preceding paragraphs are incorporated herein by reference

as though fully set forth.
130.

Command Staff Defendants, at all times material hereto, were

members of the command staff at the CCDC.
131.

As members of the command staff, at all times material hereto,

Command Staff Defendants had supervisory roles at the CCDC.

28

92a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 29 of 44

2009 Internal Affairs Investigation and Hearing
(Excessive Force)
132.

Command Staff Defendants played active roles in the internal

affairs hearing and results regarding Defendant Reed’s 2009 use of
excessive force.
133.

Within the 2009 internal affairs investigation and hearing,

Command Staff Defendants reviewed Defendant Reed’s entire
personnel file.
134.

Within the 2009 internal affairs investigation and hearing,

Command Staff Defendants specifically reviewed Defendant Reed’s
previous internal affairs investigations.
135.

When evaluating the 2009 internal affairs investigation for

excessive force, Command Staff Defendants were therefore aware of
Defendant Reed’s history of losing his temper, his history of violence
towards inmates, and his history of disregarding department policy and
violating the law.
a. Command Staff Defendants were aware of the 2005 report of
excessive force against Defendant Reed, as is set out above.
b. Command Staff Defendants were also aware of Defendant Reed’s
2006 use of excessive force, verified by video, wherein Defendant
29

93a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 30 of 44

Reed slammed a restrained inmate’s face to the floor sending the
inmate to the hospital for stitches, as is set out above.
c. In fact, Defendant Alder was involved in and personally
requested the 2006 internal affairs investigation, and Defendants
Coker, Beck, and Bartlett were notified of the investigation at its
outset.
136.

When evaluating the 2009 internal affairs investigation for

excessive force, Command Staff Defendants were also aware of
Defendant Reed’s history of disciplinary trouble as is summarized
above in the section titled, “Other Internal Affairs Investigations,” and
which includes several other instances in which Defendant Reed
violated department policy and committed criminal acts.
137.

When evaluating the 2009 internal affairs investigation for

excessive force, despite Command Staff Defendants’ personal
knowledge of these incidents, Command Staff Defendants did not
terminate Defendant Reed’s employment or assign Defendant Reed to
different duties. Command Staff Defendants allowed Defendant Reed
to keep working as a jailer.
138.

When evaluating the 2009 internal affairs investigation for

excessive force, despite Command Staff Defendants’ personal
30

94a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 31 of 44

knowledge of these incidents, Command Staff Defendants allowed
Defendant Reed to keep working as a jailer and specifically allowed
Defendant Reed to oversee and control inmates without direct
supervision.
139.

Command Staff Defendants turned a blind eye to Defendant

Reed’s substantial history of violent acts against inmates, violations of
department policy, criminal behavior, and a categorical inability to
control his temper around inmates when Command Staff Defendants
merely issued a reprimand and informal “counseling” for Defendant
Reed’s second verified violent attack on an inmate (his third overall).
140.

By merely issuing a reprimand and informal “counseling” after a

substantial history of violent acts against inmates, violations of
department policy, criminal behavior, and a categorical inability to
control his temper around inmates, Command Staff Defendants gave
Defendant Reed reason to believe such conduct was tolerated or
encouraged at the CCDC.
141.

By merely issuing a reprimand and informal “counseling” after a

substantial history of violent acts against inmates, violations of
department policy, criminal behavior, and a categorical inability to
control his temper around inmates, Command Staff Defendants failed
31

95a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 32 of 44

to adequately train, supervise, or discipline Defendant Reed with
regard to the proper way to handle disagreements with inmates, how to
manage his temper around inmates, or the improper use of force
against inmates, virtually ensuring that Defendant Reed would again
lose his temper around an inmate and cause a serious injury.
2014 Internal Affairs Investigation and Hearing
(Conduct Unbecoming an Officer)
142.

Defendant Prince was the ultimate arbiter of the 2014 internal

affairs matter regarding Defendant Reed’s 2014 grievances by inmates.
The internal affairs matter was closed without formal hearing by
Defendant Prince.
143.

Within the 2014 internal affairs matter, Defendants Prince,

Warren, Beck, Bartlett, and Craig were aware of Defendant Reed’s
entire personnel file.
144.

Within the 2014 internal affairs matter, Defendants Prince,

Warren, Beck, Bartlett, and Craig were specifically aware of Defendant
Reed’s previous internal affairs investigations.
145.

When evaluating the 2014 internal affairs investigation,

Defendants Prince, Warren, Beck, Bartlett, and Craig were therefore
aware of Defendant Reed’s history of losing his temper, his history of
32

96a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 33 of 44

violence towards inmates, and his history of disregarding department
policy and violating the law.
a. When evaluating the 2014 internal affairs investigation,
Defendants Prince, Warren, Beck, Bartlett, and Craig were
aware of the 2005 allegation of excessive force against Defendant
Reed, as is set out above.
b. When evaluating the 2014 internal affairs investigation,
Defendants Prince, Warren, Beck, Bartlett, and Craig were also
aware of the 2006 allegation of excessive force against Defendant
Reed which was deemed to be “founded,” wherein Defendant
Reed slammed a restrained inmate’s face to the floor sending the
inmate to the hospital for stitches, as is set out above.
c. When evaluating the 2014 internal affairs investigation,
Defendants Prince, Warren, Beck, Bartlett, and Craig were also
aware of the 2009 allegation of excessive force against Defendant
Reed which was deemed to be “founded,” wherein Defendant
Reed tried to slam a restrained inmate to the ground with a
headlock while the inmate was chained to another group of
inmates, simply because the inmate said something that angered
Defendant Reed, as is set out above.
33

97a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 34 of 44

146.

When evaluating the 2014 internal affairs investigation,

Defendants Prince, Warren, Beck, Bartlett, and Craig were also aware
of Defendant Reed’s history of disciplinary trouble and criminal activity
as is summarized above in the section titled, “Other Internal Affairs
Investigations,” and which includes other instances in which Defendant
Reed violated department policy and committed criminal acts.
147.

When evaluating the 2014 internal affairs investigation, despite

their personal knowledge of these incidents, Defendants Prince,
Warren, Beck, Bartlett, and Craig did not terminate Defendant Reed’s
employment or assign Defendant Reed to different duties. Defendants
Prince, Warren, Beck, Bartlett, and Craig allowed Defendant Reed to
keep working as a jailer.
148.

When evaluating the 2014 internal affairs investigation, despite

their personal knowledge of these incidents, Defendants Prince,
Warren, Beck, Bartlett, and Craig allowed Defendant Reed to keep
working as a jailer and specifically allowed Defendant Reed to handle
and control restrained inmates without direct supervision.
149.

Defendants Prince, Warren, Beck, Bartlett, and Craig turned a

blind eye to Defendant Reed’s substantial history of violent acts against
inmates, violations of department policy, criminal behavior, and a
34

98a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 35 of 44

categorical inability to control his temper around inmates when he
merely issued a verbal reprimand for Defendant Reed’s year-long
campaign of verbal abuse against numerous inmates.
150.

By merely issuing a verbal reprimand after a substantial history

of violent acts against inmates, violations of department policy,
criminal behavior, and a categorical inability to control his temper
around inmates, Defendants Prince, Warren, Beck, Bartlett, and Craig
gave Defendant Reed reason to believe such conduct was tolerated or
encouraged at the CCDC.
151.

By merely issuing a verbal reprimand after a substantial history

of violent acts against inmates, violations of department policy,
criminal behavior, and a categorical inability to control his temper
around inmates, Defendants Prince, Warren, Beck, Bartlett, and Craig
failed to adequately train, supervise, or discipline Defendant Reed with
regard to the proper way to handle disagreements with inmates, how to
manage his temper around inmates, or the improper use of force
against inmates, virtually ensuring that Defendant Reed would again
lose his temper around an inmate and cause a serious injury.

35

99a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 36 of 44

May 2015 Internal Affairs Investigation and Hearing
(Favoritism to Inmates and Violation of Policy)
152.

Defendants Craig, Prince, Beck, and Warren were present and

active participants in the 2015 internal affairs matter regarding
Defendant Reed’s favoritism to inmates and violations of policy. The
hearing was conducted by Defendant Warren.
153.

Within the 2015 internal affairs matter, Defendants Warren,

Craig, Prince, and Beck were aware of Defendant Reed’s entire
personnel file.
154.

Within the 2015 internal affairs matter, Defendants Warren,

Craig, Prince, and Beck were specifically aware of Defendant Reed’s
previous internal affairs investigations.
155.

When evaluating the 2015 internal affairs investigation,

Defendants Warren, Craig, Prince, and Beck were therefore aware of
Defendant Reed’s history of losing his temper, his history of violence
towards inmates, and his history of disregarding department policy and
violating the law.
a. When evaluating the 2015 internal affairs investigation,
Defendants Warren, Craig, Prince, and Beck were aware of the

36

100a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 37 of 44

2005 allegation of excessive force against Defendant Reed, as is
set out above.
b. When evaluating the 2015 internal affairs investigation,
Defendants Warren, Craig, Prince, and Beck were also aware of
the 2006 allegation of excessive force against Defendant Reed
which was deemed to be “founded,” wherein Defendant Reed
slammed a restrained inmate’s face to the floor sending the
inmate to the hospital for stitches, as is set out above.
c. When evaluating the 2015 internal affairs investigation,
Defendants Warren, Craig, Prince, and Beck were also aware of
the 2009 allegation of excessive force against Defendant Reed
which was deemed to be “founded,” wherein Defendant Reed tried
to slam a restrained inmate to the ground with a headlock while
the inmate was chained to another group of inmates, simply
because the inmate said something that angered Defendant Reed,
as is set out above.
d. When evaluating the 2015 internal affairs investigation,
Defendants Warren, Craig, Prince, and Beck were also aware of
Defendant Reed’s 2014 pattern of racial epithets, profanity, and

37

101a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 38 of 44

threats toward inmates, and Defendant Reed’s continued
propensity to lost his temper with inmates.
156.

When evaluating the 2015 internal affairs investigation for

excessive force, Defendants Warren, Craig, Prince, and Beck were also
aware of Defendant Reed’s history of disciplinary trouble and criminal
activity as is summarized above in the section titled, “Other Internal
Affairs Investigations,” and which includes other instances in which
Defendant Reed violated department policy and committed criminal
acts.
157.

When evaluating the 2015 internal affairs investigation, despite

their personal knowledge of these incidents, Defendants Warren, Craig,
Prince, and Beck did not terminate Defendant Reed’s employment or
assign Defendant Reed to different duties. Defendants Warren, Craig,
Prince, and Beck allowed Defendant Reed to keep working as a jailer.
158.

When evaluating the 2015 internal affairs investigation, despite

their personal knowledge of these incidents, Defendants Warren, Craig,
Prince, and Beck allowed Defendant Reed to keep working as a jailer
and specifically allowed Defendant Reed to handle and control
restrained inmates without direct supervision.

38

102a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 39 of 44

159.

Defendants Warren, Craig, Prince, and Beck turned a blind eye

to Defendant Reed’s substantial history of violent acts against inmates,
violations of department policy, criminal behavior, and a categorical
inability to control his temper around inmates when he merely issued a
verbal reprimand for Defendant Reed’s year-long campaign of verbal
abuse against numerous inmates.
160.

By merely issuing 16-hour suspension after a substantial history

of violent acts against inmates, violations of department policy,
criminal behavior, and a categorical inability to control his temper
around inmates, Defendants Warren, Craig, Prince, and Beck gave
Defendant Reed reason to believe such conduct was tolerated or
encouraged at the CCDC.
161.

By merely issuing a 16-hour suspension after a substantial

history of violent acts against inmates, violations of department policy,
criminal behavior, and a categorical inability to control his temper
around inmates, Defendants Warren, Craig, Prince, and Beck failed to
adequately train, supervise, or discipline Defendant Reed with regard
to the proper way to handle disagreements with inmates, how to
manage his temper around inmates, or the improper use of force

39

103a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 40 of 44

against inmates, virtually ensuring that Defendant Reed would again
lose his temper around an inmate and cause a serious injury.
2009, 2014, and 2015 Internal Affairs Investigations
162.

During the 2009, 2014, and 2015 internal affairs investigations,

adequate scrutiny of Defendant Reed’s disciplinary history would have
lead a reasonable supervisor to conclude that the plainly obvious
consequence of the decision to allow Defendant Reed to keep working as
a jailer and to handle and control restrained inmates without direct
supervision would be the deprivation of an inmate’s right to be free
from the use of excessive force.
163.

During the 2009, 2014, and 2015 internal affairs matters,

Command Staff Defendants disregarded a known and obvious
consequence of allowing Defendant Reed to keep working as a jailer
and to handle and control restrained inmates without direct
supervision – that Defendant Reed would again lose his temper and
retaliate against inmates with excessive force.
164.

As is outlined above, Command Staff Defendants failed to

adequately discipline, supervise, and train Defendant Reed.
165.

Command Staff Defendants failed to adequately discipline,

supervise, and train Defendant Reed in the proper use of force with
40

104a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 41 of 44

inmates, in controlling his temper around inmates, and in following the
policies of CCDC and the Cobb County Sheriff’s Office as well as
Georgia law.
166.

A reasonable person in the position of Command Staff

Defendants would understand that the failure to adequately discipline,
supervise, and train Defendant Reed in in the proper use of force with
inmates, in controlling his temper around inmates, and in following the
policies of CCDC and the Cobb County Sheriff’s Office as well as
Georgia law would constitute deliberate indifference.
167.

Command Staff Defendants deliberately turned a blind eye to

Defendant Reed’s repeated transgressions, creating a custom, pattern,
and practice that allows officers to ignore written policies and receive
no retribution or punishment for violating those policies, and that
specifically allows officers to use excessive force against inmates
without fear of retribution or punishment.
168.

In their supervisory capacities, therefore, the actions of

Command Staff Defendants were casually connected to Defendant
Reed’s use of excessive force against Plaintiff.

41

105a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 42 of 44

Prayer For Relief
WHEREFORE, Plaintiff prays that this Court issue the following relief:
1) That process issue in accordance with the law;
2) That the Court award Plaintiff compensatory and general damages
in an amount to be determined by the jury against the Defendants,
jointly and severally;
3) That the Court award Plaintiff punitive damages in an amount to be
determined by the enlightened conscience of the jury against the
Defendants;
4) That the Court award costs of this action, including attorneys’ fees,
to Plaintiff, pursuant to U.S.C. § 1988 and other applicable laws
regarding such awards;
5) That the Court award Plaintiff such other and further relief as it
deems just and necessary; and
6) That Plaintiff be granted a trial by jury.
This 19th Day of October, 2017
HORSLEY BEGNAUD, LLC
/s/ Mark Begnaud
Mark Begnaud
Georgia Bar No. 217641
mbegnaud@gacivilrights.com
42

106a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 43 of 44

Nathanael A. Horsley
Georgia Bar No. 367832
nhorsley@gacivilrights.com
750 Hammond Drive,
Building 12, Suite 300
Atlanta, Ga 30328
770-765-5559

43

107a

Case 1:17-cv-01819-TWT Document 19 Filed 10/19/17 Page 44 of 44

CERTIFICATE OF SERVICE
I hereby certify that I electronically filed the foregoing First Amended
Complaint to the Clerk of Court using the CM/ECF system which will

automatically send electronic mail notification of such filing to counsel of record
who are CM/ECF participants:
H. William Rowling, Jr.
Assistant County Attorney
H.William.Rowling@cobbcounty.org
Lauren S. Bruce
Senior Associate County Attorney
Lauren.Bruce@cobbcounty.org
COBB COUNTY ATTORNEY’S OFFICE
100 Cherokee Street
Suite 350
Marietta, Ga 30090
770-528-4000
This 19th day of October, 2017.
/s/ Mark Begnaud
Mark Begnaud
Georgia Bar No. 217641
mbegnaud@gacivilrights.com
HORLSEY BEGNAUD LLC
750 Hammond Drive,
Building 12, Suite 300
Atlanta, Ga 30328
770-765-5559 (phone)
404-602-0018 (fax)

44

